<html>
<title> - THE SITUATION IN SOUTH SUDAN</title>
<body><pre>[Senate Hearing 113-581]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 113-581

                      THE SITUATION IN SOUTH SUDAN

=======================================================================

                                HEARING

                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 9, 2014

                               __________

       Printed for the use of the Committee on Foreign Relations


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      Available via the World Wide Web: http://www.gpo.gov/fdsys/



                         U.S. GOVERNMENT PUBLISHING OFFICE 

93-484 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001



                COMMITTEE ON FOREIGN RELATIONS         

             ROBERT MENENDEZ, New Jersey, Chairman        
BARBARA BOXER, California            BOB CORKER, Tennessee
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
JEANNE SHAHEEN, New Hampshire        MARCO RUBIO, Florida
CHRISTOPHER A. COONS, Delaware       RON JOHNSON, Wisconsin
RICHARD J. DURBIN, Illinois          JEFF FLAKE, Arizona
TOM UDALL, New Mexico                JOHN McCAIN, Arizona
CHRISTOPHER MURPHY, Connecticut      JOHN BARRASSO, Wyoming
TIM KAINE, Virginia                  RAND PAUL, Kentucky
EDWARD J. MARKEY, Massachusetts
               Daniel E. O'Brien, Staff Director        
        Lester E. Munson III, Republican Staff Director        

                              (ii)        

  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Corker, Hon. Bob, U.S. Senator from Tennessee, opening statement.     2
    Responses of Assistant Secretary Linda Thomas-Greenfield to 
      Questions Submitted by Senator Bob Corker..................    58
Knopf, Hon. Kate Almquist, adjunct faculty, Africa Center for 
  Strategic Studies, National Defense University, Washington, DC.    41
    Prepared statement...........................................    43
Lindborg, Hon. Nancy E., Assistant Administrator, Bureau for 
  Democracy, Conflict and Humanitarian Assistance, U.S. Agency 
  for International Development, Washington, DC..................     7
    Prepared statement...........................................     9
Lyman, Hon. Princeton, senior advisor, United States Institute of 
  Peace, U.S. Institute of Peace, Washington, DC.................    31
    Prepared statement...........................................    33
Menendez, Hon. Robert, U.S. Senator from New Jersey, opening 
  statement......................................................     1
Prendergast, John, cofounder, Satellite Sentinel Project, Enough 
  Project, Washington, DC........................................    35
    Prepared statement...........................................    38
Thomas-Greenfield, Hon. Linda, Assistant Secretary, Bureau of 
  African Affairs, U.S. Department of State, Washington, DC......     3
    Prepared statement...........................................     5

              Additional Material Submitted for the Record

Prepared Statement of Hon. Barbara Boxer, U.S. Senator From 
  California.....................................................    57

                                 (iii)

  

 
                      THE SITUATION IN SOUTH SUDAN

                              ----------                              


                       THURSDAY, JANUARY 9, 2014

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:17 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Robert 
Menendez (chairman of the committee) presiding.
    Present: Senators Menendez, Cardin, Shaheen, Coons, Murphy, 
Kaine, Markey, Corker, Rubio, and Flake.

          OPENING STATEMENT OF HON. ROBERT MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    The Chairman. Good morning. This hearing will come to 
order. Let me welcome our panelists, all of whom are as deeply 
troubled as all of us are by the situation in South Sudan. The 
reason for this being the first hearing of this committee of 
the new year is the hope that our attention can send a message 
to all parties in South Sudan that a cease-fire, a continuing 
cease-fire, a political solution and reconciliation, is 
critical for U.S. long-term assistance, and in doing so 
hopefully we can save lives.
    We have many questions about the direction in which this 
young nation is headed and the greater implications of the 
conflict, and I hope our panelists will provide us with deeper 
insights into the situation on the ground, which I might add, 
in a different context, underscores the importance of Congress 
moving quickly on embassy security with our Embassy in Juba 
operating at severely reduced capacity as a result of the 
violence.
    Looking back, the United States Government and members of 
this committee were hopeful when we strongly supported South 
Sudan's independence in 2011. After decades of war with the 
Sudanese Government, the people of South Sudan voted in favor 
of self-determination and the chance to create an inclusive, 
democratic, prosperous society, and they were united toward 
that goal. Now that ideal is in jeopardy. Over a thousand 
people have been killed. More than 194,000 have been displaced, 
and humanitarian conditions will surely deteriorate as access 
to conflict areas diminishes.
    I think we can all agree that it is absolutely necessary 
that to avoid a downward spiral into further ethnic violence 
and chaos, all armed elements must cease hostilities 
immediately. A continuation of violence will only jeopardize 
future U.S. engagement and further U.S. assistance.
    Having said that, there is some sign for hope and reason 
for some optimism. I commend the Intergovernmental Authority 
for Development and other African leaders for successfully 
arranging negotiations in Ethiopia, and I commend President 
Kiir and former Vice President Machar for sending delegations 
to talk in Addis Ababa. At the end of the day there's only one 
option--let me reiterate Secretary Kerry's remarks--that all 
parties must make serious efforts to seek an inclusive 
political solution.
    Today's panelists are here to help us better understand the 
road to that political solution and the broader implications of 
the current crisis. We hope to gain insight into the nature of 
the rebellion--are the units cohesive? are they fragmented? how 
much does Machar--control does he have over rebel forces? I 
would hope our panelists can provide answers to the basic 
questions before us: What is the danger of the violence 
spiraling out of control? What are the underlying political and 
ethnic grievances that must be addressed? What are the most 
immediate humanitarian needs? What can the United States do to 
play a role toward the short-term and long-term reconciliation, 
and what should that reconciliation look like?
    With that, let me turn to Senator Corker for his opening 
statement.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    Senator Corker. Thank you, Mr. Chairman, and thank both of 
you in the second panel for being here with us today. We thank 
you very much for that.
    It is an understatement, I guess, to say that South Sudan 
is at a critical juncture today. Our Ambassador is there. We 
have beefed up security and not much in the way of other staff 
members. Thirty months ago, I guess there were real 
expectations about the future of South Sudan. We are seeing the 
difference between a rebel movement and a government, and I 
think we all understand it was that movement that united the 
country and now that that has been achieved things are 
deteriorating and, unfortunately, due to the lack of good 
leadership. But very quickly progress could dissipate along 
sectarian lines that could harden and make the conflict even 
more difficult to overcome.
    Khartoum is obviously benefiting from this. Given our 
historical involvement, we are seen as the de facto backstop. 
We have got a long history there and people expect us to be 
that de facto backstop. And while Uganda, Ethiopia, and Kenya 
are playing important roles--and obviously South Sudan is very 
important to China--this is a place where obviously people 
expect us to make a difference.
    So in addition to the conflict that we have there that is 
ongoing, that is causing murders and the kinds of things that 
we hate to see taking place in any country, we also realize 
that the institutional framework there is a morass and is going 
to take incredible effort over a longer period of time.
    So I do look forward to hearing the administration's point 
of view on the situation there today and prospects for the 
future. I know they share the sense of urgency that we all have 
regarding this internal conflict ending and us moving on to 
another phase there, and I do look forward to hearing your 
comments as to where we as a nation should go from here 
relative to South Sudan.
    So thank you for being here, and thank you, Mr. Chairman, 
for having the hearing.
    The Chairman. Thank you, Senator Corker.
    Let me introduce our panelists: Linda Thomas-Greenfield, 
who is the Assistant Secretary of State for African Affairs. We 
appreciate her work in her former role as well as now in this 
role and to be here today. And Nancy Lindborg, the Assistant 
Administrator for the Bureau of Democracy, Conflict, and 
Humanitarian Affairs at USAID.
    Your full statements will be included in the record without 
objection. We would ask you to synthesize those in around 5 
minutes or so so we could enter into a dialogue with you. With 
that, Madam Secretary, we will call upon you first.

STATEMENT OF HON. LINDA THOMAS-GREENFIELD, ASSISTANT SECRETARY, 
     BUREAU OF AFRICAN AFFAIRS, U.S. DEPARTMENT OF STATE, 
                         WASHINGTON, DC

    Ambassador Thomas-Greenfield. Thank you. Chairman Menendez, 
Ranking Member Corker, members of the Senate Foreign Relations 
Committee, thank you for the opportunity to testify before you 
today. I know that the subject before us is one in which you 
and other Members of Congress are deeply concerned and that you 
deeply care about the situation in Sudan. I regret that 
Ambassador Booth, our Special Envoy, is unavailable to testify 
before you today, as we have him in Addis working to get the 
peace process under way.
    Mr. Chairman, Ranking Member Corker, 3 years ago today--and 
it is really important that it was 3 years ago today; this is 
the anniversary of South Sudan's independence--on January 9, 
2011, the people of South Sudan voted in overwhelming numbers 
for independence from the Republic of Sudan. After decades of 
war, they were peacefully and joyfully voting for separation 
and for a new future. Then-Senator Kerry, my new boss, was 
there to witness that historic moment. The United States played 
a critical role in getting the world's youngest nation on the 
map.
    Today, tragically, the world's youngest country and 
undoubtedly one of the most fragile democracies is in danger of 
shattering. The United Nations has reported that more than 
1,000 people have died, over 240,000 have fled their homes, 
including a number of refugees in neighboring countries. 
Political rivalries have taken on ethnic dimensions. Atrocities 
are being committed. Men, women, and children are caught in the 
crossfire. This is not the future for which the people of Sudan 
voted 3 years ago.
    South Sudan's crisis began less than a month ago on 
December 15, with a political struggle that escalated into 
broader violence. However, as the fighting began, a few things 
became crystal clear. First, neither the United States nor the 
international community will countenance the armed overthrow of 
a democratically elected government.
    Second, hostilities must stop. Any and all violence 
directed at civilian populations must end. Those responsible 
for perpetrating human rights abuses must be held accountable.
    Third, this crisis will not be solved on the battlefield. 
We have made that point over and over again. Although fighting 
started less than 1 month ago, the roots of this conflict are 
much deeper, and resolution can only come through immediate 
dialogue between the two sides and a broader reconciliation.
    Finally, all parties must permit immediate humanitarian 
access to those in need, to the tens of thousands of South 
Sudanese men, women, and children who are the real victims of 
this violence.
    The United States has engaged in an all-out diplomatic 
effort to help bring an end to the fighting with engagement by 
Secretary Kerry, National Security Adviser Susan Rice, and 
other high-ranking officials with President Kiir and former 
Vice President Machar, as well as with the heads of state, 
foreign ministers in neighboring countries and around the 
world. We have galvanized support to end hostilities and open a 
broader dialogue between the two sides. We have called for 
accountability for atrocities and we have sought to secure the 
release of political detainees now being held in Juba.
    But while we need a political settlement among the fighting 
parties, the immediate security situation remains critical, 
particularly for the thousands of internally displaced 
civilians who have sought protection in the U.N. compounds. 
This must be addressed. As the crisis began to unfold, we 
proposed, and the Security Council unanimously adopted, a 
resolution nearly doubling the authorized size of the UNMISS 
contingent. In turn, we are now actively encouraging member 
states to provide additional troops and police units to the 
U.N. mission, including through the transfer of contingents 
from other missions in the region.
    As my colleague Assistant Administrator Lindborg will 
discuss, we have committed an additional $50 million in 
emergency humanitarian assistance. The President's Special 
Envoy to Sudan and South Sudan, Ambassador Don Booth--who as I 
noted could not be here today to testify because he is in 
Ethiopia--Ambassador Booth has been in the region since 
December 22. He has been working around the clock. He has met 
repeatedly with President Kiir and other officials. He has had 
lengthy discussions with Riek Machar. He has secured the first 
official visit with the political detainees, and he has sat 
down with local religious leaders and civil society members to 
help find a solution.
    This is an all-out effort on our part. Given our special 
history with South Sudan, we are working closely with South 
Sudan's neighbors through the East Africa Intergovernmental 
Authority on Development (IGAD), who are spearheading the 
mediation efforts. A special summit on South Sudan was held 
just 12 days after the conflict began. Ethiopian Minister 
Seyoum and Kenyan General Sumbeiywo are the two negotiators on 
the side of IGAD who are leading this effort. South Sudan's 
neighbors are also providing asylum to the new refugees.
    These negotiations offer the best hope for South Sudan and 
the region. An agreement to end hostilities will provide much-
needed time and space for dialogue to begin on the core 
political and governance issues that are the root of this 
crisis. Both sides must recognize that there can be no military 
solution. We have made clear to the rebels that we will not 
recognize a violent overthrow of a democratically elected 
government. At the same time, we have made clear to the 
government that they must open political space to allow for 
greater inclusion.
    The United States strongly believes that the political 
prisoners currently being held in Juba must be released, and 
each day that the conflict continues the risk of an all-out 
civil war grows as ethnic tensions and more civilians are 
killed, injured, are forced to flee, the humanitarian situation 
grows more dire, and those who have remained on the sidelines 
are pulled into the conflict.
    Let me conclude by saying that I am greatly concerned that 
the crisis in South Sudan has the potential to escalate even 
further. While we do not know the scale of atrocities that have 
been committed thus far, there is clear evidence that there are 
targeted killings taking place. Dinkas are killing Nuer, Nuer 
are killing Dinkas. Countless civilians, women, and children 
have become victims of violence perpetrated by both the 
government and the rebel forces alike. Each violent act 
threatens to return South Sudan to the cycle of violence and 
destruction that South Sudanese of all ethnicities and 
backgrounds voted to end when they voted for independence in 
2011.
    In addition to calling for an end to the violence, 
humanitarian access, dialogue, and the release of political 
prisoners in Juba, the United States is exploring the 
possibility of appropriate pressures against individuals on 
both sides who interfere with peace and reconciliation in South 
Sudan and those who are responsible for committing serious 
human rights abuses.
    Let me thank you again for giving us the opportunity to 
speak before you today. Let me thank you for your commitment to 
the people of Sudan and also your support for our efforts in 
the region. I look forward to your questions.
    [The prepared statement of Ambassador Thomas-Greenfield 
follows:]

        Prepared Statement of Ambassador Linda Thomas-Greenfield

                              introduction
    Chairman Menendez, Ranking Member Corker, Members of the Senate 
Foreign Relations Committee, thank you for the opportunity to testify 
before you today. I know that the subject before us is one about which 
you and other Members of Congress care deeply. I regret to inform you 
that Special Envoy Booth is unavailable to testify today as he is in 
Addis Ababa working to get the peace process underway.
                        situation in south sudan
    Mr. Chairman, Ranking Member Corker, 3 years ago today, on January 
9, 2011, the people of South Sudan voted in overwhelming numbers for 
independence from the Republic of Sudan. After decades of war, they 
were peacefully and joyfully voting for separation and for a new 
future. Then Senator Kerry was there to witness that historic moment. 
The United States played a critical role in getting the world's 
youngest country on the map.
    Today, tragically, the world's youngest country and undoubtedly one 
of its most fragile democracies is in danger of shattering. The United 
Nations has reported more than a thousand people have died and over 
240,000 have fled their homes including a number of refugees in 
neighboring countries. Political rivalries have taken on ethnic 
dimensions, atrocities are being committed, and men, women, and 
children are caught in the crossfire. This is not the future for which 
the people of South Sudan voted.
    South Sudan's crisis began less than a month ago, on December 15, 
with a political struggle that escalated into broader violence. However 
the fighting began, a few things are crystal clear. First, neither the 
United States nor the international community will countenance the 
armed overthrow of the democratically elected government. Second, 
hostilities must stop, any and all violence directed at civilian 
populations must end, and those responsible for perpetrating human 
rights abuses must be held accountable. Third, this crisis will not be 
solved on the battlefield. Although fighting started less than 1 month 
ago, the roots of this conflict are much deeper, and resolution can 
only come through immediate dialogue between the two sides and an 
inclusive reconciliation. Finally, all parties must permit immediate 
and unconditional humanitarian access to all in need, to tens of 
thousands of South Sudanese men, women, and children who are the real 
victims of this violence.
    The United States has engaged in an all-out diplomatic effort to 
help bring an end to the fighting, with engagement by Secretary Kerry, 
National Security Advisor Susan Rice, and other high-ranking officials 
with President Kiir and former Vice President Machar as well as with 
the heads of state and foreign ministers in neighboring countries and 
around the world. We have galvanized support to end hostilities and 
open a broader dialogue between the two sides; called for 
accountability for atrocities; sought to secure the release of 
political detainees now being held in Juba.
    But while we need a political settlement among the fighting 
parties, the immediate security situation remains critical--
particularly for the thousands of internally displaced civilians who 
have sought the U.N.'s protection--and must be addressed as well. As 
the crisis began to unfold, we proposed and the Security Council 
unanimously adopted a resolution nearly doubling the authorized troop 
ceiling for UNMISS. In turn, we are now actively encouraging member 
states to provide additional troops and police units to the U.N. 
mission, including through the transfer of contingents from other 
missions in the region. As my colleague, Assistant Administrator 
Lindborg will discuss, we have just committed an additional $50 million 
in emergency humanitarian assistance in response to pressing new needs 
arising from the crisis.
    The President's Special Envoy to Sudan and South Sudan, Ambassador 
Donald Booth--who, as I noted, could not be here to testify today 
because he is in Ethiopia--is actively trying to help resolve this 
crisis. Ambassador Booth has been in the region since December 22, 
working around the clock, as we all have in supporting his efforts. He 
has met repeatedly with President Kiir and other officials, had lengthy 
discussions with former Vice President Machar, secured the first 
official visit with the group of political detainees, and sat down with 
local religious leaders and civil society members to help find a way 
out of this crisis.
    This is an all-out effort on our part, and given our special 
history in South Sudan, we are working closely with South Sudan's 
neighbors, through East Africa's Intergovernmental Authority on 
Development or IGAD, who are spearheading mediation efforts. A special 
summit on South Sudan was held at the head of state level just 12 days 
after the conflict began, and thanks to robust engagement, 
representatives of both parties arrived in Addis for negotiations just 
a few days later. We are encouraged by IGAD's leadership in convening 
the parties and strongly support the efforts of former Ethiopian 
Minister Seyoum Mesfin and Kenyan General Lazaro Sumbeiywo to find a 
peaceful solution through political dialogue. South Sudan's neighbors 
are also providing asylum for new South Sudanese refugees who may 
number in the hundreds of thousands if the fighting does not end soon.
    These negotiations offer the best hope for South Sudan and the 
region. An agreement to end hostilities will provide much needed time 
and space for dialogue to begin on the core political and governance 
issues that are at the root of this crisis. Both sides must recognize 
that there can be no military solution. We have made clear to the 
rebels that we will not recognize a violent overthrow of a 
democratically elected government. At the same time, we are encouraging 
the government to open political space to allow for greater inclusion. 
The United States also strongly believes that the political prisoners 
currently being held in Juba must be released. These individuals should 
join discussions in Addis to enlarge the chorus of those seeking 
constructive solutions to resolve this growing catastrophe. Each day 
that the conflict continues, the risk of all-out civil war grows as 
ethnic tensions rise, more civilians are killed, injured, or forced to 
flee, the humanitarian situation grows more dire, and those who have 
remained on the sidelines are pulled into the conflict.
    Let me conclude by saying that I am gravely concerned that the 
crisis in South Sudan has the potential to escalate even further. While 
we do not know the scale of atrocities that have been committed thus 
far, there is clear evidence that targeted killings have taken place, 
with Dinka killing Nuer, and Nuer killing Dinka. Countless civilians, 
particularly women and children, have become victims of violence 
perpetrated by both government and rebel forces alike. Each violent act 
threatens to return South Sudan to the cycle of violence and 
destruction that South Sudanese of all ethnicities and backgrounds 
voted to end when they voted for independence in 2011. Stopping the 
violence, and ensuring that Africa's newest nation continues to move 
forward rather than backward, is of highest priority to the United 
States and the international community.
    In addition to calling for an end to the violence, humanitarian 
access, dialogue, and the release of political prisoners in Juba, the 
United States is exploring the possibility of appropriate pressures 
against individuals on both sides who interfere with the peace and 
reconciliation process in South Sudan or are responsible for serious 
human rights abuses.
    I want to thank you for your continued commitment to the people of 
South Sudan, and I look forward to your questions.

    The Chairman. Thank you.
    Administrator Lindborg.

 STATEMENT OF HON. NANCY E. LINDBORG, ASSISTANT ADMINISTRATOR, 
  BUREAU FOR DEMOCRACY, CONFLICT AND HUMANITARIAN ASSISTANCE, 
   U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT, WASHINGTON, DC

    Ms. Lindborg. Thank you. Chairman Menendez, Ranking Member 
Corker, members of the Senate Foreign Relations Committee, 
thank you very much for holding the hearing today and inviting 
me to testify, and thank you also for your ongoing support for 
our work around the world, which continues to save millions and 
millions of lives.
    The United States Government, including many of you, has 
been a strong supporter of the people of South Sudan for 
decades, through the civil war, through the comprehensive peace 
agreement, and since independence in 2011. And we are all 
deeply, deeply alarmed by the horrific violence that now 
threatens this hard-won struggle, especially today, as my 
colleague noted, the third anniversary of independence, in 
which 99 percent of the people voted to form the world's 
youngest nation.
    The outbreak of hostilities on December 15 has since 
erupted into heavy fighting across seven of South Sudan's 10 
states. The fighting is the result of longstanding, deeply 
rooted grievances in a fragile, new state that has nascent 
institutions that are not yet able to deliver justice or 
services to its people. Coupled with this unresolved power 
struggle, this has ignited tensions along ethnic lines, and we 
are now seeing a renewed and vicious cycle of killing.
    As this new fighting creates urgent new sets of 
humanitarian needs, it also significantly complicates our 
ability to meet the extensive needs that already existed across 
South Sudan, one of the poorest nations on Earth. An estimated 
40 percent of the country's 4.4 million people were already in 
need of humanitarian assistance before the recent violence. 
This is the result of two decades of civil war, communal 
violence, the recurring floods and droughts, plus the influx of 
over 2,000 refugees into South Sudan from Southern Kordofan and 
Blue Nile States since 2011.
    So the lack of roads, the pervasive underdevelopment that 
already made South Sudan one of the most logistically difficult 
environments, further complicates our work today. There are 
seasonal rains that routinely cut off access to entire regions 
for months at a time.
    So our challenge today is twofold, both respond to the 
immediate hostility-driven needs as well as find ways to 
continue our longstanding work that seeks to assist nearly half 
the population already in need. The United States remains 
deeply committed to the people of Sudan and today just a few 
more words on what is a rapidly changing situation and our 
humanitarian response. In the few weeks since the fighting 
erupted, the violence has already claimed the lives of more 
than a thousand people, and as of today we have seen 270,000 
people driven from their homes. Of those, 60,000 have been 
forced to seek protection in the eight peacekeeping bases of 
the local U.N. missions, or the UNMISS compounds, which are 
located in major towns around the country, and almost 39,000 
have sought refuge in neighboring Uganda, Ethiopia, and Kenya, 
which are straining the reception capacities at key border 
crossings.
    The town of Bor, which is just a few hours north of Juba, 
is a strategic gateway to South Sudan's capital. It is caught 
in a desperate tug of war between the fighting factions. It has 
borne the brunt of the violence and looting. We are hearing 
graphic reports of unburied bodies along the roads. More than 
84,000 people have fled Bor to make a treacherous journey 
across the White Nile River to seek shelter in neighboring 
Awerial County, where relief agencies initially found people 
living under the hot sun with very short supplies of water, 
food, medical assistance. Parents are often making difficult 
choices of whether to separate from their children so that they 
can pay for their safe passage out of a dangerous area.
    The new fighting is accelerating developments. Just 
yesterday we heard new reports of several thousand displaced 
people in numerous sites, including a newly discovered group of 
30,000 displaced South Sudanese in Lankien, which is in Jonglei 
State. People continue to flee the shifting lines of control 
and the ongoing violence.
    Our humanitarian response is immensely complicated by the 
difficult and very chaotic conditions. The Nile River, which is 
typically a major supply conduit, has been off limits for weeks 
because barges have been commandeered for hostile purposes.
    We currently have ample stockpiles of key supplies that 
have previously been prepositioned around the country as a part 
of our normal response effort. It has the security conditions 
that are impeding the movement of those supplies and disrupting 
supply chains. USAID stood up a disaster assistance response 
team in Nairobi as well as a response management team in 
Washington shortly after the violence began, and since then we 
have been working closely with U.N. and humanitarian partners 
to support the urgent new programs, as well as seek to plan for 
the upcoming raining season.
    The good news is that in the middle of this crisis there is 
deep humanitarian expertise. On January 3 we announced 
additional $50 million that is in addition to our ongoing 
humanitarian commitment of $318 million for 2013 and 2014. The 
new funding will help us do a multisector humanitarian response 
operation, support the displaced, family reunification, and 
most importantly, additional logistical capacity.
    We have especially prioritized additional support for 
flights that enable the U.N. to regularly reach seven of the 
UNMISS compounds now with urgent food and supplies. We just 
received confirmation that three U.N. flights reached Bor as 
well, that previously we were not able to reach. To date the 
U.N. reports that relief agencies have reached about 167,000 
people in the bases and in the new settlements with urgent 
relief.
    Immediate, unconditional, and full access for humanitarian 
assistance throughout South Sudan is of urgent and utmost 
importance. Humanitarian workers, both international and South 
Sudanese, are currently working at great personal risk and they 
must have safe passage to reach those in need. We need to 
ensure not only that we reach those whose lives have just been 
upended by new violence, but also to begin to resupply in 
advance of the April rains or risk an even greater crisis with 
rising hunger through the country.
    Pressing for humanitarian access is a key and urgent part 
of the ongoing negotiations for peace. The South Sudanese 
leaders have the ability to ease the suffering of their people. 
The United States remains steadfast in our decades-long 
commitment to the people of Sudan, and most of all we thank you 
for your ongoing support, your commitment, and your attention 
to this new crisis.
    Thank you.
    [The prepared statement of Ms. Lindborg follows:]

                Prepared Statement of Nancy E. Lindborg

    Chairman Menendez, Ranking Member Corker, and members of the 
committee, thank you for inviting me to testify on the U.S. 
humanitarian response to the crisis in South Sudan. Thank you also for 
your continued support for USAID's humanitarian programs around the 
world, which make a positive difference every day in the lives of 
millions.
                              introduction
    The U.S. Government, including many Members of Congress, has been a 
strong supporter of the welfare of the people of South Sudan for 
decades--throughout Sudan's civil war, the Comprehensive Peace 
Agreement period, and since independence in 2011. We are all deeply 
alarmed by the horrific violence now threatening their hard-won 
struggle for independence--especially today, which marks just the third 
anniversary of South Sudan's referendum, in which an overwhelming 99 
percent of the South Sudanese people voted to form the world's youngest 
nation. The people of South Sudan have endured far too many years of 
conflict and bloodshed to see peace slip away.
    The outbreak of hostilities on December 15 has since erupted into 
heavy fighting across 7 of South Sudan's 10 states. This fighting is 
the result of longstanding, deeply rooted grievances in a fragile new 
state with nascent institutions not yet able to deliver justice or 
services to its people. Coupled with an unresolved power struggle that 
has ignited tensions along ethnic lines, we are now seeing a vicious 
cycle of targeted killings.
    As this new fighting creates a new, vast set of humanitarian needs, 
it also significantly complicates our ability to meet the extensive 
humanitarian needs that existed across South Sudan prior to December 
15. Due to decades of civil war, sporadic communal violence, and the 
recurrent shocks of floods and drought, an estimated 40 percent of 
South Sudan's population--up to 4.4 million people--were already in 
need of humanitarian assistance. Even before the current crisis, the 
lack of roads and pervasive underdevelopment made South Sudan one of 
the most difficult environments to work in worldwide.
    Meanwhile, South Sudan has welcomed some 230,000 refugees from 
neighboring countries, including the more than 200,000 refugees who 
have fled the fighting in Sudan's Southern Kordofan and Blue Nile 
States since June 2011, adding to an already vast array of needs in a 
country where more than half the population lives below the poverty 
line, and human development indicators are among the lowest in the 
world.
    The humanitarian challenge today then is twofold: to respond to the 
immediate needs as well as find ways to continue our longstanding, 
lifesaving work targeting nearly half the population already in need. 
In the face of these challenges, the United States remains committed to 
working with the international community to respond to urgent needs of 
the people of South Sudan.
    Today, I'd like to talk about two key areas: first, an overview of 
the current humanitarian conditions; and second, an update on our 
response efforts and critical next steps.
                           current situation
    In the few weeks since heavy fighting broke out in the towns of 
Bor, Malakal, and Bentiu, the spreading violence in South Sudan has 
claimed the lives of more than 1,000 people and driven more than 
240,000 people from their homes. Until there is progress on the 
urgently convened peace negotiations and political dialogue, there is 
potential for additional clashes and displacement.
    According to the United Nations (U.N.), approximately 60,000 
people--or 30 percent of those internally displaced--have sought refuge 
in at least eight peacekeeping bases of the U.N. Mission in the 
Republic of South Sudan (UNMISS). The town of Bor--a strategic gateway 
to Juba--is caught in a desperate tug-of-war between fighting factions. 
Ongoing violence and looting have caused thousands to seek safety at 
one UNMISS base, where a lack of safe drinking water and poor 
sanitation risk the outbreak of disease. This is the same bleak reality 
being experienced in other South Sudanese towns, prompting desperate 
families to seek refuge at UNMISS bases in Malakal, Bentiu, Bor, Juba, 
Pariang, and Melu.
    An additional 85,000 people have fled Bor to make the treacherous 
journey across the White Nile River to seek shelter in neighboring 
Awerial County, where relief agencies initially found many people 
living under the hot, unrelenting sun with a short supply of clean 
water, food, and shelter and inadequate sanitation.
    Almost 39,000 displaced South Sudanese refugees are seeking safety 
in neighboring Uganda, Ethiopia, and Kenya. New refugees are beginning 
to strain reception capacity but all three governments are working 
closely with the U.N. High Commissioner for Refugees to address the 
inflows.
    These new developments come on top of recurrent environmental 
hazards, violence, displacement, returnee and refugee inflows, and 
macroeconomic shocks over the last 2 years since South Sudan's 
independence. Nearly 160,000 individuals were displaced between January 
and September 2013. Nearly 75 percent of this displacement occurred in 
Jonglei State, where intercommunal violence and conflict between the 
Sudan People's Liberation Army (SPLA) and nonstate armed actors forced 
an estimated 100,000 civilians to flee to remote and difficult-to-
access rural areas.
Challenges to Aid Delivery
    Current hostilities and regularly changing lines of control make it 
difficult to reach both key areas newly affected by the recent violence 
and areas of longstanding need, with lifesaving humanitarian 
assistance. While ample stockpiles of supplies are prepositioned, 
security conditions on the ground are preventing international and 
nongovernmental agencies from accessing their own warehouses, 
disrupting supply chains, and impeding their access to needy 
populations. Caught up in the violence, some partner offices and 
warehouses have been looted and vehicles taken by the groups engaged in 
the violence. Commercial drivers carrying humanitarian supplies have 
been killed, while our partners are routinely denied access to roads by 
the SPLA and armed groups. The Nile River--typically a major conduit 
for the movement of supplies--has been off limits for weeks as barges 
are no longer available for humanitarian use.
                        u.s. government response
    In the midst of these extensive constraints, the U.S. Government is 
working closely with the U.N. and with our partners to examine all 
possible ways to meet current, acute needs due to the worsening crisis, 
while also planning ahead for the upcoming rainy season. Moreover, we 
continue to work closely with the State Department to push for the 
humanitarian access and respect for humanitarian workers, which is so 
vital to providing urgently needed aid. The U.S. Government continues 
to insist that immediate, unconditional, and unfettered humanitarian 
access be allowed throughout South Sudan. Our partners have been 
blocked from the Nile and from flying into Bor from Juba. The U.N. must 
be given access via air, road, and river to deliver urgently needed 
humanitarian supplies and personnel and to reach all populations in 
need.
    Immediately after the violence began on December 15, USAID stood up 
an eight-member Disaster Assistance Response Team (DART) of experienced 
humanitarian staff based in Nairobi, Kenya, as well as a Response 
Management Team (RMT) in Washington to monitor mounting needs and work 
with international partners to respond to the growing numbers of 
displaced persons. Despite a still highly volatile and uncertain 
environment, the U.N. and some NGOs have chosen to keep staff in-
country to implement the response.
    With continued support from the U.S. Government since South Sudan's 
birth in 2011 and decades of work in the region, our U.N. and NGO 
partners have honed the logistical and technical expertise essential to 
operate in the challenging South Sudan environment to help those most 
in need--where roads routinely close during the rainy season and 
communities are effectively cut off for months. To date, the U.N. 
reports that relief agencies have reached an estimated 167,000 newly 
displaced people with humanitarian assistance, primarily those people 
at UNMISS bases or in neighboring counties where security and access 
have permitted the delivery of aid.
    In response to the new violence, we have strategically funded the 
U.N. and NGOs in support of an efficient and nimble platform, which 
allows agencies to respond to increased need on the ground. Despite 
access challenges posed by armed groups, humanitarian organizations are 
working to overcome hurdles and optimize all means possible--including 
road, air, and barge transport--to deliver life-saving assistance. On 
January 3, the Department of State and USAID announced an additional 
nearly $50 million in humanitarian assistance for South Sudan, bringing 
the total U.S. commitment to more than $318 million for fiscal years 
2013 and 2014. This new funding supports a multisector humanitarian 
response operation, including the provision of food, safe drinking 
water, emergency health care, vaccinations, improved sanitation, and 
shelter as well as the protection of civilians and support for 
survivors of violence. This new funding will also help manage sites for 
the displaced, support reunification of families separated by the 
fighting, and fund programs to help ensure the protection of the most 
vulnerable populations, including women and children. This work will be 
carried out by the International Committee of the Red Cross (ICRC) and 
U.N. agencies including the U.N. High Commissioner for Refugees 
(UNHCR), UNICEF, the World Health Organization (WHO), the World Food 
Programme (WFP), the Food and Agriculture Organization (FAO), and the 
U.N. Office for the Coordination of Humanitarian Affairs (OCHA).
    Importantly, this new funding also helps support additional 
logistical capacity including to the U.N. Humanitarian Air Service 
(UNHAS), currently ferrying aid workers and supplies to seven UNMISS 
camps housing 51,000 internally displaced persons. The eighth camp in 
Bor just yesterday received three flights but these are not yet 
sustained and reliable.
    In addition to new funds, we are using the full flexibility of our 
larger humanitarian portfolio, allowing our partners to redirect or 
reprogram funds to meet rapidly changing needs in a volatile 
environment--and to change course to meet the most urgent needs while 
still planning longer term. We know that in complex environments like 
South Sudan, partners need the flexibility to redirect resources and 
assess how their own programs can best adapt.
    In response to a continually changing environment, in 2010 USAID 
stood up a Rapid Response Fund (RRF) that allows us to quickly route 
funding to international and national NGOs working on the ground as 
part of our ongoing humanitarian assistance efforts for the people of 
South Sudan. Since the recent crisis began, USAID has awarded nearly 
$1.5 million in grants for six emergency projects through the RRF to 
make an immediate difference. At the UNMISS base in Juba where tight 
living conditions could risk disease outbreaks, USAID is funding two 
South Sudanese NGOs through the RRF to provide emergency health care, 
clean water, and improved sanitation and hygiene to internally 
displaced persons. Outside Bor, in rural areas of Awerial County where 
tens of thousands have sought refuge from the violence, another USAID-
funded South Sudanese NGO called AWODA is digging emergency latrines, 
constructing hand-washing facilities and bathing shelters, and 
distributing hygiene kits--all to prevent the spread of disease.
    We are currently at the outset of the dry season, ordinarily a time 
when our partners would begin to use this 5-month window of dry weather 
to replenish and preposition relief supplies before roads become 
impassable with the start of seasonal rains in June. The response to 
this current crisis has benefited from the existing stockpile of 
warehoused supplies. Looking ahead, if the violence persists, USAID 
will work with partners to seek all means of identifying ways to 
restock and resupply critical supply chains, both to address the 
current violence as well as address the ongoing critical needs of 
communities throughout one of the poorest nations on earth.
                               conclusion
    As USAID works to meet urgent humanitarian needs in light of recent 
events, we are also reviewing our portfolio of development activities--
and we look forward to staying in close contact with Congress as we 
undertake this deliberative process to determine the best way forward.
    Looking ahead, increased access to those in need will be the key 
determinant of our success. The United States remains steadfast in our 
decades-long commitment to the South Sudanese people. As my colleague, 
Assistant Secretary Thomas-Greenfield, has noted, we are using our full 
diplomatic efforts to negotiate an end to the violence as well as press 
all sides to respect the humanitarian supplies, personnel, and efforts 
essential to saving South Sudanese lives. The South Sudanese people 
deserve their rights to be protected and to live in communities free 
from harm.
    As President Obama aptly stated, ``too much blood has been spilled 
and too many lives have been lost to allow South Sudan's moment of hope 
and opportunity to slip from its grasp.''
    Thank you for your time today and for the vital congressional 
support that makes our life-saving work possible. I look forward to 
your questions.

    The Chairman. Thank you.
    Let me start off with you, Secretary Greenfield. What 
evidence is there to suggest there are underlying--and I want 
to talk about that following this first question--but what 
evidence is there to suggest that the event that triggered the 
crisis was a coup attempt by former Vice President Riek Machar?
    Ambassador Thomas-Greenfield. Senator, thank you for that 
question. I think we have looked at the situation that has been 
an ongoing political situation in South Sudan for almost a 
year. There were internal dynamics within the SPLM--I am sorry, 
the SPLA--that started with Riek Machar's being voted out of 
his Vice Presidential position.
    What we have heard through many sources, all public, was 
that there was a fight that occurred at the party convention 
that took place on the 15th of December and that that led to 
the ongoing conflict. We have not seen any evidence that this 
was a coup attempt, but it certainly was the result of a huge 
political riff between Riek Machar and the President.
    The Chairman. So then how do you view Machar's decision to 
take part in an armed rebellion against the Government of South 
Sudan?
    Ambassador Thomas-Greenfield. I think it is an armed 
rebellion against the Government of South Sudan and it started 
as a result of the political riff. We think they should resolve 
this through political talks, through negotiations, and not 
through war. What happened on December 15 was, we understand, 
an attack on Riek Machar's home, that he then left Juba, and 
the armed conflict resulted after that.
    The Chairman. Are we advocates of expanding the peace 
process? We are all focused, obviously, on the urgency of the 
moment and the attempt to create a cease-fire and save lives. 
But the long-term prospects here seem to me to, in part, 
fundamentally be a hope that by expanding the peace process and 
creating a more inclusive process. Otherwise, a quick, and what 
some might describe, quick and dirty resolution of power-
sharing between the powers that exist is not going to bring the 
long-term stability that we seek.
    Are we advocates of expanding the peace process and 
creating a more inclusive broad-range set of participants?
    Ambassador Thomas-Greenfield. Absolutely, sir. We do not 
believe this is going to end with the cessation of hostilities, 
that what must follow the end of the conflict is a very, very 
organized political dialogue that will lay out the grievances 
of the various parties so that those grievances can be taken 
into account and plans can be made for the next election.
    We think it is absolutely important that the 11 detainees 
who are being held in Juba be released so that they can 
participate in that political dialogue and bring to the table 
issues that they have that they did not--they are not part of 
the conflict, but they do have political grievances, and it is 
important that those grievances be addressed by the current 
government.
    The Chairman. Are we collecting evidence of atrocities?
    Ambassador Thomas-Greenfield. Absolutely.
    The Chairman. Because I hope not only are we vigorously 
collecting evidence of atrocities, but we send a very clear 
message that we will find ways to punish those who commit 
atrocities.
    Ambassador Thomas-Greenfield. Yes, sir. We have sent that 
message to all sides. I hinted at that message in my remarks 
today, but they have both heard it from Ambassador Booth and 
they are hearing it from others in the region. We were pleased 
to hear that the AU Peace and Security Commission has also 
looked at establishing a commission of inquiry and others in 
the region are as well. We are trying to bolster the U.N.'s 
human rights monitoring capabilities so that again we can 
collect the information we need.
    But at the same time, we want to prevent atrocities, so 
part of our efforts to get the U.N.'s forces built up was to 
get enough troops on the ground so that they could provide 
protection for the population.
    The Chairman. Well, that is my next question. The U.N. 
peacekeepers that are providing security to tens of thousands 
of South Sudanese in the UNMISS camps is incredibly important. 
What, if anything, are we doing to assist UNMISS efforts to 
protect these people, the vast majority who are women and 
children?
    Ambassador Thomas-Greenfield. We went immediately to the 
Security Council and supported the efforts of the Security 
Council to increase the UNMIL (United Nations Mission in 
Liberia) contingent by 5,500, and we have been working around 
the clock on the phone with leaders in the region, as well as 
outside of the region, to contribute to those numbers. Nepal 
has provided additional troops. Bangladesh has provided 
additional troops. We have a commitment from Ghana to redeploy 
some of their troops from UNOCI (United Nations Operation in 
Cote d'Ivoire) as well as to provide new contingents to 
bolster----
    The Chairman. What do you assess the ability of UNMISS to 
meet its mission at this point, capability?
    Ambassador Thomas-Greenfield. It is challenging, sir. This 
is why we have----
    The Chairman. I know it is challenging, and I do not mean 
to press you, but give me--quantify for me ``challenging''?
    Ambassador Thomas-Greenfield. They do not have enough 
troops on the ground----
    The Chairman. That is what I thought.
    Ambassador Thomas-Greenfield. [continuing]. To do this. 
This is why we want to help them build up those troops numbers.
    The Chairman. Administrator, let me ask you two quick 
questions. One is, the $50 million of course is welcome under 
the crisis, but looking at the nature of this crisis, how long 
do you think that is going to take you? What are you doing to 
work with others to join in in assistance? You mentioned 
flights arriving. What about these reports of child soldiers 
firing upon flights? Are children being used in this regard?
    Ms. Lindborg. The $50 million is in addition to what was 
already a large pipeline of humanitarian assistance, and we 
have employed all of our flexibility to enable existing 
partners to redirect portions of their existing programs to 
meet these new needs. The World Food Programme, for example, 
has been able to redirect some of their food, and we have 
something called a Rapid Response Fund that we have had since 
2011, that is built to be able to respond to the many different 
crises that have erupted in South Sudan, including floods and 
droughts.
    So, for right now, we have a good pipeline to help us deal 
with the existing crisis. We have also worked closely with our 
other donor allies, and there is a new action plan that the 
U.N. has put out that has already gotten significant resource 
from the U.K., from Norway, and a few of the other donors who 
have long been key supporters of South Sudan. So we have a 
solid partnership with others who are stepping forward with 
resources as well.
    On the flights, the reports that we have received about the 
firing of one of the flights was that it was potentially an 
error of communications. There have been no--not further 
incidents of flights. We are getting into most of the UNMISS 
compounds. The big problem has been into Bor, where we were not 
getting permission from the South Sudanese Government. That was 
changed yesterday when we got reports this morning of two 
flights going into Bor, and our hope is that that will now be a 
regular occurrence that will enable us to get supplies into 
that compound.
    The Chairman. Do either of you have information, finally, 
on the children being used as soldiers?
    Ms. Lindborg. We are hearing reports of child soldiers. We 
do not have confirmation of how many, and that is one of the 
many issues of great concern in this rising violence.
    The Chairman. Senator Corker.
    Senator Corker. Thank you, Mr. Chairman.
    Thank you again both for being here and for your work on 
behalf of our country.
    The talks that are taking place this week, do we have the 
right people at the table?
    Ambassador Thomas-Greenfield. You mean on the----
    Senator Corker. From the opposing sides.
    Ambassador Thomas-Greenfield. The government has sent a 
very strong delegation and we were very pleased with that. On 
the Riek Machar side, he has requested that the 11 detainees be 
part of his delegation. He has a delegation on the ground, but 
his full delegation is not there. So I do think it is a good 
team there. They are able to speak with authority for both 
sides, but the Riek Machar side does not have the full 
delegation that it wants.
    Senator Corker. So are you sensing that without that full 
delegation and yet having participants from both sides that can 
speak, are you sensing that these talks are going to yield any 
breakthroughs?
    Ambassador Thomas-Greenfield. Not at the moment. We got 
agreement, I understand from Ambassador Booth, for a cessation 
of hostilities, but the Riek Machar side is still insisting 
that the 11 detainees be released before they sign off on 
anything. We are working both in Juba as well as in Addis as 
well as here in Washington to pressure the government to 
release these detainees. The two negotiators, the Kenyan and 
Ethiopian negotiators, were in Juba yesterday. They met with 
President Kiir and they also met with the detainees.
    Senator Corker. Is there any chance that is going to occur?
    Ambassador Thomas-Greenfield. We are hopeful. We heard 
early, right around Christmas, that President Kiir was going to 
release eight of them. That did not happen. We are still 
pressing him. Secretary Kerry spoke to him several times on 
this and we are hopeful that he will get the message that he is 
getting from around the world, because he is getting phone 
calls both from within the region as well as outside the region 
to impress upon him how important it is for him to release the 
detainees.
    We think they will bring an added voice to the 
negotiations, they will bring some political views that are 
much more moderate than what we are hearing, because they are 
not part of the fighting party, and they have made very, very 
clear that they want dialogue; they do not want to be part of 
the fighting.
    Senator Corker. The prisoners?
    Ambassador Thomas-Greenfield. Yes.
    Senator Corker. So what would be the President's resistance 
to going in and releasing them to be a part of this? If he 
knows that, why would he resist releasing them?
    Ambassador Thomas-Greenfield. That is a question I cannot 
answer for him, but he has accused the prisoners of being part 
of the alleged coup plot and that there are legal procedures 
that they have to go through before he can make the decision to 
release them.
    Senator Corker. So then on our side, just to understand how 
this is all playing out, we have a special envoy, and I know we 
have had some ups and downs, we have had vacancies there. And 
then we also have an Ambassador in South Sudan. Who is actually 
in charge, if you will, of U.S. policy relative to this 
conflict and trying to resolve it?
    Ambassador Thomas-Greenfield. We, in Washington, are in 
charge of the policy. Ambassador Booth, the Special Envoy, has 
the responsibility of implementing that policy in terms of the 
negotiations. But our Ambassador on the ground is the person 
who is the major interlocutor for the government, because she 
is there 24-7. Ambassador Booth comes in and out. He is 
currently full-time in Addis leading our efforts to push 
forward the negotiation. Ambassador Page in Juba has continued 
to have meetings with the government, continued to push the 
government to release the detainees. She has had several 
meetings with the detainees, and her position of being there to 
keep our flag flying is an important role.
    Senator Corker. So you think the arrangement we have 
relative to how we have arranged for our leadership there to 
be, we think it is working the way it should?
    Ambassador Thomas-Greenfield. It is working well, sir.
    Senator Corker. We have invested, obviously, billions of 
dollars as a country, invested a lot of time, a lot of people 
have. South Sudan and Sudan in general has just had a lot of 
interest from the United States. With what is happening there 
now, especially after the bigger expectations that everyone had 
3 years ago, as you mentioned, and certainly 30 months ago, has 
the State Department at all questioned our efforts there? Has 
there been any diminution in feeling like we can end up in a 
place there that is good? What has this last several months--
what is the effect on the State Department efforts there?
    Ambassador Thomas-Greenfield. I think I can say that we are 
disappointed with the way things are going in Sudan. But we are 
committed to ensuring that Sudan does not fail. We are 
committed to staying with the process to get them to the peace 
negotiation table and committed to Sudan having a future for 
their people.
    They are disappointed. They have been failed by their 
leaders. So we feel we have to stand with the Sudanese people 
to take this to a conclusion that will lead the country back on 
the right track.
    Senator Corker. I know Chairman Menendez was asking a 
little bit about the U.N. forces. I know many of us have been 
to Darfur and have seen the mandate that the U.N. has there and 
have been frustrated in the past by that. Does UNMISS have the 
right mandate on the ground in South Sudan right now?
    Ambassador Thomas-Greenfield. We think they do, but we have 
looked at that mandate and it is certainly--given the current 
situation on the ground, I think we need to make sure we beef 
up their mandate, particularly on the peacekeeping side. They 
are there as a protection force. Certainly in terms of their 
numbers and capacity, they are not at a place now to handle the 
current situation. It is our hope that we can build that up 
rather quickly.
    Senator Corker. Mr. Chairman, thank you. And thank you 
both.
    The Chairman. Thank you, Senator Corker.
    Senator Cardin.
    Senator Cardin. Mr. Chairman, first thanks for conducting 
this hearing.
    Let me thank both of our witnesses for what you do to 
promote U.S. interests under extremely challenging 
circumstances. I thank you very much, and strongly support the 
framework that you have laid out. No. 1, we need to protect the 
population against continued violence. The U.N. peacekeeping 
force there needs to be critically evaluated to make sure that 
there are adequate resources to implement, we hope, some form 
of a cessation of violence.
    The humanitarian issues are incredibly difficult, with the 
NGO community not able to operate as they did prior to the 
violence. It raises significant challenges as to whether the 
resources and aid will get to the people who really need it. I 
expect the United States will play a major role in trying to 
sort that out.
    And you are correct, 3 years ago as the elections started 
for independence in South Sudan the United States and the 
international community were cheering for this new nation. The 
last 2\1/2\ years, we have not spent enough time dealing with 
the institutions of good governance that can deal with the 
challenges of the country. I hope that we will understand that 
it is not just acknowledging a new country, but working to make 
sure that they have the institutions necessary to protect all 
citizens from the challenges of ethnic diversity.
    But I want to talk about one point that Chairman Menendez 
mentioned. Your response was what I expected to hear. In your 
written statement you say, and you said verbally, that those 
responsible for perpetrating human rights abuses must be held 
accountable. I have heard this before. We have been through 
Rwanda, we have been through Bosnia, we have been through 
Syria, we have been through Darfur, and now we are dealing with 
South Sudan. It seems to me that as we start negotiating and we 
say we are getting documentation and we are going to make sure 
that tribunals are formed--that this becomes an afterthought 
rather than a primary thought.
    Quite frankly, I think one of the problems that we have is 
that those who perpetrate ethnic cleansing do not believe the 
international community will ever hold them accountable for 
their crimes against humanity. Unless we make this a real 
priority, unless we talk about it, and do not put it on the 
side and say, oh, no, we have got to take care of stopping the 
violence, we have got to get the parties talking, and we do not 
want to bring up issues that might be divisive, we are never 
going to get the type of attention to accountability for those 
who commit crimes against humanity that we need.
    I have been here for too many of these ethnic cleansing 
problems around the world, and the response for those who 
perpetrated it has been weak at best. So what can you tell this 
committee about how the United States, which has always been 
the leader on these issues, will make sure that those who 
committed atrocities will be held accountable by the 
international community?
    Ambassador Thomas-Greenfield. Thank you for that question, 
and my answer I am not sure will satisfy you, because it is not 
going to satisfy me. It is hard, but having worked in Africa 
for many years, we have some examples where we have succeeded. 
If we look at Liberia and look at the fact that Charles Taylor 
was held accountable and is serving the rest of his life in 
prison, that is the example that I want to follow for us in 
Sudan as we look at how to be successful in holding people 
accountable.
    But it is hard. I cannot say that this is something that we 
will be able to accomplish easily, but I can say it is 
something that we are committed to making every effort to 
accomplish.
    Senator Cardin. Let me just point out, if the United States 
does not make this the priority issue it will not be a priority 
issue. It is up to us. So you are responsible for putting 
together the agenda on these international meetings. And I do 
appreciate the fact that we are documenting and providing, I 
hope, the legal information that will be necessary to present 
to the appropriate tribunals.
    But it seems to me that your public statements at every 
opportunity should be about how we are going to make sure that 
people are held accountable--and I just hope that when I look 
at the headlines in the papers and see how these negotiations 
are taking place, that I see this theme consistently 
throughout, because if not, as sure as we are here today, there 
will be another country where we are going to see the same type 
of atrocities committed against people because of their 
ethnicity. And that cannot be tolerated by the international 
community.
    Unless we hold people accountable and make sure that there 
can be no peace without accountability, it will happen again.
    Thank you, Mr. Chairman.
    The Chairman. I want to thank the distinguished Senator for 
being a long-time advocate in this regard. I am wholeheartedly 
with you in this regard. This is why Magnitsky, one element of 
it was incredibly important, and your work on the Helsinki 
Commission is incredibly important. I look forward as the chair 
to work with you to press this issue, not only in South Sudan, 
but elsewhere as well.
    Senator Rubio.
    Senator Rubio. Thank you, Mr. Chairman, for holding this 
hearing, and to the ranking member as well.
    Secretary Greenfield, I want to ask you, in light of 
tragedies that have occurred over the last couple years, first 
and foremost, what are we doing to ensure the security of our 
personnel in South Sudan? I know that on the 21st of December 
of this year a U.S. military aircraft was fired upon. The 
aircraft had been dispatched to rescue people in South Sudan, I 
believe they were Americans. They had to abort the mission, and 
four U.S. service men and women--I do not know the details--
were injured.
    So a multipronged question. How confident are we that our 
personnel in South Sudan are safe? And second, do we know, and 
do we have plans in place to hold accountable those who fired 
upon our aircraft and injured our personnel?
    Ambassador Thomas-Greenfield. Senator, thank you for that 
question. Let me just start by saying that the security of our 
personnel for me, for the Department, for the administration, 
is our highest priority. We watch the security situation on the 
ground in Juba almost on an hourly basis. We have a 24-hour 
task force. As you know, our staff at the Embassy are down to 
the minimal levels. Right now it is the Ambassador, being 
supported by two staff, and the rest of them are security 
people. We have 9 DS officers, 7 Marines, and 45 forces from 
the East Africa Response Unit to provide that support.
    Again, on almost an hourly basis we are looking at the 
security situation with the concern of the Ambassador and the 
rest of the team, their security in mind.
    The attack on our planes, I know that AFRICOM is looking 
into that. We do not know who shot at those planes, but that is 
something that we are in the process of investigating.
    We want to keep our Embassy open. We think it is important 
to keep our Embassy open. We think it is important for us to 
have a diplomatic presence on the ground, to continue to engage 
all of the parties. But it is also having our flag flying. It 
is also a symbol for the people of Sudan. We do not want to 
abandon them. But at any moment where we determine that the 
situation is not secure for our Ambassador to remain, we are 
prepared to get them out of there before the situation is at a 
point where we have to get them out in extreme conditions.
    Senator Rubio. My second question is a followup to a 
question Senator Corker asked about whether we have the right 
people in place in South Sudan. There have been media reports 
about armed civilian groups that may or may not be responsive 
to some of the folks that are at the table in these 
conversations. How concerned are we about that? Because there 
have been reports of these community-based groups that are 
armed, who allegedly may have participated in some ethnic 
targeting. How big of a problem could that pose in terms of 
reaching a resolution to this in terms of--how big a problem 
are these armed civilian groups that are out there conducting 
attacks and other operations?
    Ambassador Thomas-Greenfield. That is a big problem, 
because our concern is that they are not under the command and 
control of any of the leaders there. So that is a problem I 
think we have to be very, very conscious of.
    Senator Rubio. So it is a real problem.
    Ambassador Thomas-Greenfield. It is a real problem.
    Senator Rubio. The last question has to do with our 
national interest, because any time we deal with issues 
happening abroad the fundamental question for many people is, 
we understand it is a horrible tragedy and it is a terrible 
thing, but why should the United States care? I mean, this is 
not our business. I hear that from some.
    Obviously, I believe the humanitarian issues that we have 
outlined here today in both your testimony and then Ms. 
Lindborg's testimony, and we must heard Senator Cardin's 
comments as well--I agree with all of those things. I think 
those things in and of themselves are an interest to the United 
States.
    But beyond that, I want to talk a little bit about regional 
stability and get your input on this. It is ironic to see the 
leaders of Sudan and South Sudan desperate to get this thing 
figured out because of the oil exports. So this independence 
somewhat put a strain on Sudan's economy because of the loss of 
the oil fields. My understanding is that domestically in Sudan 
it created some internal controversy with regard to that.
    Talk to us a little bit about the threat that this poses to 
Sudan and ultimately to other nations in the region, in 
particular the loss of oil revenues in those fields that are 
undermined, and also the flow of refugees that I imagine are 
pouring over the border back into Sudan from South Sudan.
    What is the possibility, if this conflict is not resolved, 
of this undermining and spreading, creating real problems 
within Sudan, and then ultimately the entire region becoming 
unstable, and we all know what instability leads to in 
operational space for real bad actors. So describe a little bit 
about that threat of spiraling into that.
    Ambassador Thomas-Greenfield. The situation in South Sudan 
can really swell into problems for all of its neighbors. But I 
think particularly the fact that we saw President Bashir visit 
South Sudan last week--he clearly is concerned about the impact 
of that situation on what is happening in Sudan, but 
particularly on the flow of oil.
    We had heard that there had been discussions about Sudan 
providing military support to South Sudan. The press reports 
that have come out have indicated that they do not plan to do 
that; they are going to provide experts to assist in the oil 
fields, and we can interpret that in many, many different ways.
    The Government of Uganda has indicated that they have real 
concerns about the impact of the situation in South Sudan on 
Uganda. Kenya already has a very large, and Uganda, very large 
refugee camp with Sudanese refugees, both from the south and 
the north. As you heard from my colleague, we are seeing more 
refugees flow across the border. Ethiopia I think also has some 
concerns.
    What I am concerned about is if these countries get 
involved in the conflict in any way that this conflict could 
spread.
    Senator Rubio. I just would wrap up by asking about the 
refugees because in addition the loss of the oil revenues to 
Sudan would create extraordinary domestic pressures within 
Sudan, thereby creating the potential of a problem there as 
well. If you could just describe briefly the ramifications of 
having these camps and other installations crossing over into 
other countries, but particularly Sudan, the risk the refugees 
are at and the risk it poses of violence in those other 
countries as well? I mean, that is a real thing we are 
concerned about as well, and that would clearly be in our 
national interest to prevent.
    Ambassador Thomas-Greenfield. I think if I can turn to my 
colleague here to talk about the refugee situations and the 
impact. But from the political standpoint, having outflows of 
populations into neighboring countries takes the problems from 
the country into the neighboring countries, and I think that 
that is a concern that all of South Sudan's neighbors have. 
Having been neighbors of Sudan during the conflict of more than 
30 years, they know the impact that refugees will have on their 
societies, on their economies.
    Ms. Lindborg. I would just add that it is a region that has 
had significant displacement for several decades, and you have 
got a neighboring country of Central African Republic that is 
dealing with its own serious spiraling crisis as well. Two 
hundred thousand people have come from Sudan from the two areas 
of Southern Kordofan and Blue Nile into South Sudan just in the 
last 2 years. So those people are now doubly imperiled.
    As people continue to move across these borders, there is 
always greater danger once families are displaced and once they 
are moving into countries where they have fewer resources, and 
some of them are already fragile because of the pressures of 
dealing with so many displaced populations.
    The Chairman. Thank you.
    As I call upon Senator Coons, let me thank you as the chair 
of the Africa Subcommittee and Senator Flake as the ranking 
member for having done some tremendous work over the last year 
on the issues facing the African Continent. We are thrilled 
with the work that you do on behalf of the full committee, and 
at this time recognize you.
    Senator Coons. Thank you very much, Chairman Menendez. 
Thank you for your leadership of the committee. And I would 
like to thank the witnesses for sharing your insights today.
    In 2011 I sponsored a resolution welcoming the independence 
of South Sudan, urging that its leaders address some of the 
longstanding internal challenges in order to put them on a path 
toward long-term stability. Just 3 years now from the date of 
the referendum, as you mentioned, Madam Secretary, I am deeply 
disappointed by the senseless violence, by the widespread 
humanitarian challenge, and by the rapidly expanding political 
challenge in South Sudan.
    I want to commend you and the administration for your 
prompt response and thorough engagement, for the leadership 
that you have shown and that Ambassador Booth is showing, and 
for our ability to step up to the plate quickly.
    Start, if you would, for me, Madam Secretary, with just a 
quick summary as to why South Sudan matters to the United 
States, why this crisis matters to the people of the United 
States?
    Ambassador Thomas-Greenfield. Thank you for that question. 
For 30 years the United States has been supporting the people 
of South Sudan, even before South Sudan became an entity, 
supporting their right to exist, their right to freedom of 
religion, and their fight against the Government of Sudan. We 
birthed this nation. There are Americans from all walks of 
life--my e-mail has been burning up since this started on 
December 15 from Americans who are concerned about what is 
happening in Sudan. I have not gotten a single e-mail from 
someone saying do not spend your time working on this.
    We do care as a nation about South Sudan. We also have a 
significant population of Sudanese-Americans who have thrived 
in our country, but who have an abiding interest in the success 
of Sudan. So I think it goes without saying that we care. We 
have an interest. But we also have an interest in maintaining 
peace in the region and making sure that there is no ungoverned 
space that extremist groups can take advantage of. While that 
has not been an issue thus far in South Sudan, I think if we 
leave it it could become a problem, and then it becomes a 
bigger problem for us.
    Senator Coons. I appreciate your putting it that way. I 
think I agree with you that we have both values priorities--a 
new, somewhat fragile democracy we want to see not just 
birthed, but launched and healthy and vibrant and successful, 
but it has regional implications and it also has leadership 
implications. Does the United States stay the course? Do we 
address not just immediate or emergent humanitarian crises, but 
do we remain engaged in a leadership role as we fight for 
democracy on what is in many ways one of the most important 
continents on Earth?
    As the ongoing negotiations in Addis are moving forward, my 
sense from your testimony was that there is a cease-fire focus 
immediately, and I am hoping that once there is a full team 
from both sides there will be a broader focus on a broader 
range of issues, including corruption, which was one of the 
main challenges in Juba. What role might the United States be 
asked to play in monitoring or implementing the cease-fire? 
What additional resources might we bring to the table or be 
called upon to bring to the table to make sure that UNMISS is 
successful? And what additional resources, I might ask both you 
and Assistant Administrator Lindborg, do we need to be 
deploying in order to be effective in our humanitarian relief 
efforts with our vital allies?
    Ambassador Thomas-Greenfield. Again, thank you for that 
question, and I will turn to my colleague. We have been viewed 
by both sides as an honest broker. We have been accused by both 
sides of supporting each of the other sides. So I think we have 
probably got it right. We are looking at how we can support the 
efforts to ensure that there is peace and that each side honors 
commitments to a cease-fire. So we are looking at what 
resources we may have available in our South Sudan account to 
support that effort.
    Ms. Lindborg. On the humanitarian side, as I mentioned 
earlier, we have added another $50 million in addition to what 
was already a $318 million portfolio. If this conflict 
persists, if the needs continue to be this urgent, we will 
start running into some tough choices, given the rising crises 
that we have globally with Syria, Central Africa Republic, the 
typhoon that we just responded to.
    So thanks to the very important support of Congress, we 
were able to do what we needed to do last year. As we look 
ahead, there will be again tough decisions and the need for the 
support of all of you in order for us to maintain global 
humanitarian leadership.
    Senator Coons. I think this was a great example of how the 
rapid response capability that you were given makes it possible 
for you to indeed effectively and rapidly respond.
    My last question has to do with both a regional actor and 
then a global actor. Museveni and Uganda have played a fairly 
active role here in support of the government of Salva Kiir. 
What sort of messages are we sending to him about the role we 
welcome or we hope that Uganda might play, and what do you make 
of his motives and what are the challenges with Uganda?
    My last question would be: What role is China playing? The 
Chinese have been quite active in this region and could be seen 
to be transitioning to supporting ability rather than picking 
sides. How might we more effectively engage the Chinese in a 
positive way in supporting long-term stability?
    Ambassador Thomas-Greenfield. On Uganda, Uganda initially 
went into South Sudan to support needed infrastructure. So they 
provided troops to secure the airport and to secure the Juba 
road to Nimule to ensure that their citizens were able to come 
out safely. We do know--and this has come up as an issue at the 
talks in Addis--that the Ugandans have indicated, and they have 
said it publicly, that they support the government of Salva 
Kiir, that they have an interest in the region, and they want 
to ensure that a democratically elected government is not 
overthrown by violence.
    It has, as I mentioned, caused an issue because they are 
part of IGAD and IGAD is the negotiating party. But IGAD 
announced very early on after their heads of state summit that 
they would support stability in the region and would be 
prepared to do so militarily. So this is something that we are 
watching very, very closely. We have cautioned Ugandan friends 
that they do have to be careful and need to be conscious of 
their actions and that their actions do not lead to greater 
conflict. They have indicated to us that they strongly support 
the peace process, they support the negotiations, but in the 
mean time they will continue to provide a stabilizing force in 
Juba.
    Senator Coons. And as to China and China's potential?
    Ambassador Thomas-Greenfield. On China, there is a Chinese 
Special Envoy who is in Addis. He has been working very closely 
with Ambassador Booth, and China seems to be playing a very 
positive role in supporting the peace process. They have 
interest.
    Senator Coons. Thank you very much.
    Thank you, Chairman Menendez.
    The Chairman. Thank you.
    Senator Flake.
    Senator Flake. Thank you.
    I appreciate working with Senator Coons on these issues. He 
had many of the same questions that I wanted to ask. With 
regard to Uganda, they moved in quickly with troops to secure 
exit of their citizens and whatever else. Was that always under 
the U.N. auspices or was that simply them moving in troops?
    Ambassador Thomas-Greenfield. It was not under the U.N. 
auspices. They did it as a neighbor and at the request of the 
Government of South Sudan they were asked to come in.
    Senator Flake. The peacekeeping troops in there, what 
countries make up those forces right now?
    Ambassador Thomas-Greenfield. We have, just recently, 
Bangladeshis; we have some Kenyans; we have Nigerians; and we 
are expecting Ghanaians to come in. I can get back to you with 
the full list of which countries are participating.
    [A written reply by Ambassador Thomas-Greenfield supplying 
the requested information follows:]

    The U.N. Mission in South Sudan (UNMISS) currently has military 
personnel from the following countries: Australia, Bangladesh, Belarus, 
Benin, Bolivia, Brazil, Cambodia, Canada, China, Denmark, Ecuador, 
Egypt, El Salvador, Fiji, Germany, Ghana, Guatemala, Guinea, India, 
Indonesia, Italy, Japan, Jordan, Kenya, Kyrgyzstan, Mali, Mongolia, 
Namibia, Nepal, Netherlands, New Zealand, Nigeria, Norway, Papua New 
Guinea, Paraguay, Peru, Poland, Republic of Korea, Republic of Moldova, 
Romania, Russian Federation, Rwanda, Senegal, Sri Lanka, Sweden, 
Switzerland, Timor-Leste, Togo, Uganda, Ukraine, United Kingdom, United 
Republic of Tanzania, United States, Yemen and Zambia.
    Additionally, UNMISS has police personnel from the following 
countries: Argentina, Australia, Bangladesh, Bosnia and Herzegovina, 
Brazil, China, El Salvador, Ethiopia, Fiji, Finland, Gambia, Germany, 
Ghana, India, Kenya, Kyrgyzstan, Malaysia, Namibia, Nepal, Netherlands, 
Nigeria, Norway, Philippines, Russian Federation, Rwanda, Samoa, 
Senegal, Sierra Leone, South Africa, Sri Lanka, Sweden, Switzerland, 
Thailand, Turkey, Uganda, Ukraine, United States, Zambia and Zimbabwe.

    Senator Flake. Thank you.
    With regard to the oil revenue, there are some reports that 
I see that say that production is down 20 percent, others 
saying it stopped completely. What do we know at this point?
    Ambassador Thomas-Greenfield. The latest information I have 
is that many of the oil wells have been stopped. I do not know 
what the percentage is. There is some oil left in the pipeline, 
but most of the pumping has ceased.
    Senator Flake. The only option--these pipelines go through 
Sudan proper or overland via truck to the coast. That is not 
much of an option, never was. So this--and no other industry in 
the country to speak of, really. I think the largest industry 
outside the oil industry is a brewery. There is not much to 
fall back on.
    In terms of U.S. aid, this is one of the first examples I 
have seen where the United States has actually taken the 
prohibition that the Congress has placed on aid to countries 
that undergo a coup or new governments by virtue of a coup and 
have said basically--and tell me if I am wrong--we have said 
that if this is a coup and if it succeeds, that there will be a 
cutoff of aid. Has that been our policy? Are we using that as 
leverage now against those opposition forces?
    Ambassador Thomas-Greenfield. We have said to the 
opposition that we will not support their efforts to violently 
overthrow this government, and I think that would include aid 
programs. But when I say aid programs, I have to be very 
careful because we are not talking about the programs that 
support the people of Sudan. Right now all of our support to 
the Government of South Sudan, all of that support, it is not 
being implemented because we cannot implement it. So we are not 
doing any programs right now. But I would suspect that at a 
point if this violence continues that we would suspend that 
support.
    Senator Flake. Those programs, if they were to be 
implemented now, what percentage of them are in the 
humanitarian area that would not be affected by our 
restrictions? Is it a real threat to those in opposition, the 
Vice President's forces or whatever, that aid will be cut off?
    Ambassador Thomas-Greenfield. You know, I do not think it 
is a threat that works, because if either of these sides cared 
about their people they would not be fighting. We have told 
them that they stand the chance of losing all support from the 
U.S. Government and the fighting has continued. But again, on 
the humanitarian side, if I may turn to my colleague.
    Ms. Lindborg. Just to make a sharp distinction between the 
humanitarian funds that go directly to support people who are 
in acute need from the development activities, some of which 
went directly to support government capacity-building and 
standing up of the new institutions. They are put in very 
separate categories.
    Senator Flake. Some of those, development categories to 
improve the lot of the people, is that a fuzzy area or is there 
a clear distinction as to what is humanitarian and what is not?
    Ms. Lindborg. Well, there is always a consideration of the 
kinds of programs under the development portfolio that directly 
assist people, such as health facilities or health programs, or 
even some of the community-based reconciliation programs that 
we have conducted. So that is exactly the kind of consideration 
that would come into play should we need to.
    Senator Flake. Can you give me some idea? I mean, if we are 
saying we are going to cut off aid if this coup succeeds, for 
example, if this coup does succeed how much of our aid will 
still flow? Do you know? Can you give me any percentage? I know 
there is some fuzziness and that is why I am wondering what 
will still go from the United States to a new government if one 
comes in.
    Ms. Lindborg. Let us get back to you with that information, 
because to be more precise I think will take additional 
consideration. But we will definitely be happy to get back to 
you on that.
    There is an inability to conduct some of the programs right 
now in any case, just because of the confusion and the violence 
that is under way. It is the humanitarian programs that we are 
continuing to push out and are able to ensure that aid is 
getting to people.
    Senator Flake. Follow up on another one of Senator Coons' 
questions, with regard to China, this is the first time that I 
can see that China has actually issued even a statement with 
regard to security concerns there. China tends to, when they 
invest, they invest human capital as well and have personnel 
there. Is their concern the safety of workers there or have 
there been casualties among those who are in the country, 
foreign workers?
    Ambassador Thomas-Greenfield. I have not heard that there 
have been any casualties that the Chinese have suffered. But 
many of them are working in the areas of oil production, and 
all of those people have been evacuated out. So for that 
reason, the oil wells are not operating.
    Ambassador Thomas-Greenfield. Is China doing any more than 
simply making a statement? Like I said, that is the first time 
they have gone that far, but have they done anything else?
    Ambassador Thomas-Greenfield. They are actively involved in 
the peace process in Addis. I understand that they have been 
holding meetings with the various parties there, and they 
certainly have been working very, very closely with Ambassador 
Booth.
    Senator Flake. Well, thank you both. With CAR and South 
Sudan, it is tough duty and I know you are working very hard at 
this. So thank you.
    The Chairman. Thank you.
    Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    Thank you both for being here. I am sorry that I missed 
your testimony, so you may have already talked more about this. 
As you talk about the additional humanitarian aid and the 
redirection of that, can you talk about to what extent we are 
cooperating with the U.N. and other groups on the ground there 
and how that is working and whether there are ways to improve 
that, or how concerned are you about what is happening there?
    Ms. Lindborg. We are working very closely with the U.N., 
with our NGO partners, and with our key allies, including those 
who have been long, strong partners on South Sudan--the U.K., 
the EU, Canada. We are in almost daily contact, both at the 
Juba level and in Nairobi and through our headquarters 
conversations. The U.N. country team is leading the charge in 
terms of coordinating the overall assistance, seeing when the 
opportunities arise to get aid into the UNMISS compounds. The 
NGO community is very courageously still operating many of 
their programs. There are NGOs that are doing protection 
patrols inside some of the UNMISS compounds, for example.
    So there is active close coordination. As I did say 
earlier, one of the bright spots in the middle of a lot of bad 
news is that there is a long history of very strong 
humanitarian action in South Sudan, born of necessity, but it 
gives us the capacity to respond rapidly and as effectively as 
one can in tough situations.
    Senator Shaheen. Obviously, some of the stories that have 
come out have been about the atrocities against women and the 
particular challenges facing children--women and children. Can 
you talk about whether there are specific efforts around the 
humanitarian assistance to address some of those concerns?
    Ms. Lindborg. Yes. Again, against a backdrop of a lot of 
security constraints and impeded access, to the degree that 
humanitarian workers are able to reach some of these 
populations there has been an effort like these protection 
patrols, so that you have the aid workers actually in with the 
displaced communities. Some of the real effort has been to get 
medical supplies, food, and water to these spontaneous 
settlements of displaced people, including 30,000 who were just 
discovered yesterday.
    So the humanitarian and the protection needs are hand in 
hand. One of the most important things that we can do is 
improve the security situation overall, which my colleague 
spoke about in terms of increasing UNMISS troops and, most of 
all, having improved access and peace negotiations.
    Senator Shaheen. There was a report on the news this 
morning criticizing our efforts in South Sudan as our having 
not been tough enough--I do not remember the exact phrasing, 
but that was the gist of what it was saying--on some of the new 
leaders and not expecting enough of them.
    Can you respond to that and whether there are other things 
that we can do that will help put pressure on those leaders to 
encourage them to resolve the situation?
    Ambassador Thomas-Greenfield. Thank you. I think we have to 
keep the pressure on and we have been tough with them at every 
level from the start of this. But even before this started, our 
Ambassador had made numerous statements concerning her concerns 
about the situation. She has been in regular contact with the 
government as the political situation started to unravel almost 
a year ago. She was making those statements. One of my 
colleagues has indicated to me that he in congressional 
testimony in June expressed concerns about this publicly, and 
also we have continued to express those concerns both to Riek 
Machar as well as to Salva Kiir.
    Senator Shaheen. You talked about Uganda and the role that 
they have played. Are there other regional players that are 
influencing the situation, either for good or bad, that we 
should be concerned about?
    Ambassador Thomas-Greenfield. I think we should thank the 
Ethiopian Government and the Kenyan Government, who have been 
actively involved in the negotiations and working to bring both 
parties to the peace table. President Haile Mariam and 
President Kenyatta visited South Sudan, visited Juba, and 
impressed upon the President the importance of sending a 
delegation. I know that they are speaking on a regular basis 
with the government and pushing particularly the government to 
release the detainees. They have been working very closely with 
us looking at ways that we can support their efforts. So I 
think their efforts have been extraordinarily positive.
    We have also talked to many countries in the region 
concerning contributing additional troops for the U.N., and all 
of them are looking at ways that they might either move troops 
from another peacekeeping force to provide support to the U.N. 
in South Sudan. Pretty much we are asking them to rob from one 
crisis to contribute to another.
    Senator Shaheen. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Senator Kaine, who has been patiently waiting 
for his opportunity.
    Senator Kaine. Thank you, Senator Menendez. And if you 
patiently wait, your colleagues ask all your questions, which 
is not a bad thing. You get to hear the answers to the 
questions you wanted to ask.
    But just a few things. To what extent is control of the oil 
resources a motivating factor in the conflict, or is it more of 
a collateral consequence of the conflict?
    Ambassador Thomas-Greenfield. I think it is probably both. 
I know that the fighting in the north, the rebel forces clearly 
want to maintain or gain control of the oil resources, and the 
government is certainly fighting tooth and nail to retain those 
resources. Certainly any government that wants to take over 
power will be looking at those oil resources as resources that 
they would want to have contribute to their efforts.
    We have made very, very clear that if there is a violent 
takeover those oil resources will certainly be sanctioned.
    Senator Kaine. Then, Administrator Lindborg, to pick up on 
questions that Senator Shaheen was asking about, the delivery 
of humanitarian aid, some of your written testimony dealt with 
that. I just want to make sure I understand. It sounds like the 
challenges with the delivery of humanitarian aid right now are 
mostly security challenges. There is not other kinds of 
challenges that are making it hard to deliver the humanitarian 
aid that we want to, that we want to deliver? Do I understand 
your testimony correctly on that?
    Ms. Lindborg. I would say security plus logistical, because 
it is a very complicated logistical environment even before 
this renewed violence.
    Senator Kaine. Could you talk a little bit about that? I 
think you have testified about the security side. That would be 
helpful.
    Ms. Lindborg. The Nile, for example, is a virtual highway 
for moving supplies around, and all the barges have been 
commandeered and are unavailable to move relief supplies. There 
are very few roads, and we are having to work up against the 
upcoming rainy season. Typically, on an annual basis this is 
the dry season. This is the period during which we need to 
preposition critical relief supplies around the country----
    Senator Kaine. That can be used throughout the rainy 
season.
    Ms. Lindborg [continuing]. In the regions that are shut off 
during the rainy season. So there is a lot of those logistical 
supplies. We have funded additional flights so that the U.N. 
can fly to the UNMISS bases, where we have got a concentration 
of displaced people, because they are otherwise not very easily 
reached. So those flights are happening. We have augmented that 
capacity. It is expensive and it does not let us move as much 
as quickly.
    So it is security compounded by the difficult logistics.
    Senator Kaine. When does the rainy season start?
    Ms. Lindborg. It will start in May. So we have until May 
both to position for the following year or we will be facing 
increased hunger around the country in addition to the 
consequences of this violence.
    Senator Kaine. I would love it if USAID and you could keep 
the committee informed about steps that we should be taking, or 
that we should be working with the administration, to promote 
and to facilitate the delivery of the humanitarian aid.
    Ms. Lindborg. Great. Thank you for your support, Senator.
    Senator Kaine. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Markey.
    Senator Markey. Thank you, Mr. Chairman, very much.
    Ambassador, there have been reports of atrocities by all 
sides of the conflict in South Sudan, with at least several 
mass graves discovered and reports of both Dinka and Nuer 
civilians being murdered for belonging to the wrong ethnic 
group. I was especially saddened and disturbed by a December 
Human Rights Watch report that members of the South Sudanese 
Army had targeted Nuer civilians in Juba on the basis of their 
ethnicity.
    Given the hundreds of millions of dollars in security 
assistance that the United States has provided to the South 
Sudanese forces since 2005, this raises some disturbing 
questions. The United States has now suspended security 
assistance and training in December. My question is, Under what 
circumstances will this security assistance be allowed to 
resume, and will there be consideration now paid to the fact 
that we need assurances that our assistance and training will 
not be used to commit human rights violations?
    Ambassador Thomas-Greenfield. Thank you for that question. 
We have been really saddened by the events that have clearly 
turned this fight into a battle that is ethnic in nature, and 
particularly that it is happening inside of the military. We 
have asked the U.N. about the information on mass graves. They 
have not been able to confirm those. We hope to help them get 
their human rights monitors out in the field so that we can 
collect that kind of evidence and be prepared to deal with the 
evidence in terms of holding people accountable. But we have 
not seen yet the evidence of the mass graves.
    We do know that there have been extraordinary killings both 
of Dinkas in the north and of Nuer in and around Juba. This is 
something that has all of us very worried.
    Our security assistance I think raises some serious 
questions on how we will implement programs that provide 
training to the Sudanese military after some of these actions 
have been made public.
    Senator Markey. So here is my question to you. In January 
2012, President Obama added South Sudan to the list of 
countries eligible to buy weapons from the United States. 
During fiscal year 2012 the State Department reported that it 
had authorized commercial sales of $9 million worth of U.S.-
made military equipment to South Sudan, including military 
electronics and missile-related technology. More than $3 
million worth of equipment was actually shipped. In contrast, 
the European Union continued to maintain an arms embargo since 
July 2011.
    The question is, Will the State Department suspend or limit 
future weapons sales to South Sudan, given the risk of United 
States weapons being used to commit atrocities?
    Ambassador Thomas-Greenfield. At the moment we are not 
implementing any of those programs, but let me get back to you 
with a full answer to that. My inclination is to say that that 
is likely going to be the case, but I would prefer to get back 
to you with more detail.
    Senator Markey. Well, the administration in general is in 
the process of loosening the regulations that govern arms 
exports. Under the new rules, most types of weapons and 
equipment could be exported without a license and without a 
legal requirement that the State Department first review the 
proposed sales to ensure that they will not fuel armed conflict 
or harm human rights. The press has reported at one point the 
administration was seriously considering loosening the controls 
on guns and ammunition since they were not critical to 
maintaining a military or intelligence advantage of the United 
States.
    Can you give us your opinion, Madam Ambassador, whether or 
not we do need a very careful review of arms exports in general 
to assess the potential for them to be used to commit human 
rights violations that is critical to protecting civilians, 
both in South Sudan, but in other countries in the world?
    Ambassador Thomas-Greenfield. I can speak on South Sudan 
and I certainly will take your question back, but my view is in 
South Sudan we are suspending right now the implementation of 
all of those programs and we will be looking very closely at 
any kinds of support that we provide the South Sudan military 
in the future.
    [A written reply by Ambassador Thomas-Greenfield supplying 
the requested information follows:]

    While the administration is in the process of reform, it is not 
``loosening'' our export control regulations. The revisions made to 
this effort will not result in reduced control over the release of 
military items. These revisions involve transitioning less sensitive 
military hardware to the jurisdiction of the Department of Commerce. 
While some of the least sensitive of these items may be eligible for 
export under a license exception to the governments of our closest 
allies, we will still require a license issued by the Department of 
Commerce with input by the Department of State and Department of 
Defense. The Department of State has not published any proposed 
revisions to the categories covering firearms, guns, or ammunition. As 
described by the United States Conventional Arms Transfer Policy, 
updated by the President on January 15, 2014, oversight of arms exports 
is a vital tool of our national security and foreign policy, including 
ensuring human rights abroad. This has not and will not change as a 
result of the revisions being made to our export controls. Rather, the 
controls will allow the Department of State to more closely scrutinize 
those items that are critical to national security, while transitioning 
less sensitive items to the Department of Commerce where they will 
still require a license, except under limited circumstance when 
exported to the governments of our closest allies. The Department of 
State will still review those license applications to screen them for 
foreign policy considerations, including human rights. To reiterate, 
the U.S. Government has never sold weapons to South Sudan and has no 
plans to do so.

    Senator Markey. For my part, I think the European Union is 
closer to where we should be on these issues. I think the 
United States has to step back, because the long-term 
implication of anything that we do can be profound. If we start 
selling nuclear power plants to countries that have long-term 
instability issues or we sell arms to countries that we know 
have a much higher probability than not of being turned around 
and used for purposes other than those which were originally 
intended, then we have the responsibility of reevaluating 
whether or not that makes any sense going forward.
    Finally, the overwhelming majority of the South Sudanese 
people depend on natural resources for their livelihoods. 
Temperatures have increased, rainfall has decreased in the area 
over the last several decades, with negative consequences for 
agriculture and food security. We know that that then creates a 
threat multiplier inside of countries like Sudan. Can you talk 
a little bit about that, in your opinion as to what we can do 
as a country to help to reduce the long-term impact of climate 
change on a country like Sudan?
    Ms. Lindborg. Senator, thank you for that question. We have 
actually for the last 2 years had an intensive initiative in 
East Africa on building greater resilience specifically in 
areas that have chronic poverty overlaid with these continual 
shocks of droughts and floods and the changes that you are 
identifying. We have made great progress in Kenya and Ethiopia 
and even Somalia, and we were moving forward in South Sudan.
    What we are seeing is the disruption of all of that, which 
is all too often the case when you have conflict that rolls 
back progress and gains. Hopefully, we will be able to resume 
that, which enables greater management of risk and greater 
adaptation to these kinds of changes, so that we get ahead of 
the kind of natural disaster cycles.
    Senator Markey. You get into a very bad negative feedback 
loop, where the very thing that caused the problem, the 
instability or the food insecurity, fighting for smaller and 
smaller and smaller amounts of natural resources, then lead to 
the conflict. It then makes it more difficult for you to solve 
the problem that was the original cause of the problem.
    Ms. Lindborg. That is absolutely right. Understanding how 
to manage and mitigate the risk of conflict is critical for 
these programs. We have done a lot of that work at the 
community level throughout South Sudan. I would just note that 
we are not getting widespread reports of violence among 
communities. So far it is armed actors who are perpetrating 
most of the violence.
    We want to continue to be able to do that, and would love 
to come brief you on the resilience programs.
    Senator Markey. The only problem is, as we know, is that 
the absence of the natural resources that are related to 
climate change then further exacerbates the ethnic conflicts. 
They are fighting over less and less, which makes it easier for 
the armed forces to enlist their ethnic brethren in a fight 
over those limited resources. So the climate change at the end 
comes back as a major factor.
    Again, I would just urge that human rights be a factor that 
is much higher in priority in terms of arms exports from the 
United States, I think. It is just time for us to have that 
reevaluation.
    Thank you, Mr. Chairman.
    The Chairman. Let me thank you. I think you have raised 
some very important critical issues. Some of the questions that 
have been raised here about who and our continuation of 
assistance is why this committee voted 16 to 1 in a bipartisan 
basis to create language to deal with these circumstances. It 
is my hope as the omnibus bill moves forward that the 
Appropriations Committee will look at that language and, if 
not, that we will have an opportunity to consider that language 
on the floor.
    I think the State Department cannot be in a position of 
picking and choosing, but having a standard that is universal, 
with the options for national security. I think that is 
incredibly important.
    The thanks of the committee--do you have something else? 
Sorry, Senator Corker.
    Senator Corker. I would like to just say thank you again 
for your testimony. I am just listening to a lot of questions 
here. I know in the opening comments you mentioned that, or the 
opening questioning, that Machar did not undertake a coup in 
your opinion, that forces went to his home, he left, and then 
this began.
    Then I have heard you on a continued basis talk about no 
aid would flow if there was a coup of any kind or a violent 
takeover. I hope--and I have seen Uganda is reported to have 
thousands of troops maybe helping the regime. I hope that all 
the international players, the neighbors, and ourselves, are 
applying enough pressure on Salva Kiir to want to solve this, 
because as I listen to all the questioning and answering it 
feels like most of the pressure is on the other side. I just 
hope that the pressure is being applied in a very balanced way.
    You do not have to respond to that, but just in listening 
to the answers I am not sure that would come out in this 
testimony.
    The Chairman. With the thanks of the committee for your 
appearance here today and your work, we will move on to our 
second panel. Thank you. You are excused.
    With thanks to our next panel, I will introduce, for their 
patience and the input that they will have before the committee 
now, Ambassador Princeton Lyman, who has served as the U.S. 
Special Envoy for Sudan from 2011 to 2013 and previously served 
as the U.S. senior adviser on North-South negotiations; Mr. 
John Prendergast, a prominent human rights activist, author, 
and cofounder of the Enough Project to end genocide and crimes 
against humanity, particularly on the continent of Africa; and 
Kate Almquist Knopf, who has served as USAID Assistant 
Administrator for Africa and Sudan Mission Director.
    Let me--evidently, you all know each other very well. 
Handshakes and kisses are being shared.
    Let me again thank you for your patience, but your 
testimony is incredibly important here. We ask you to summarize 
your statements in about 5 minutes so we can have a dialogue 
with you. Your full statements will be included in the record 
without objection.
    Ambassador Lyman, we will start with you.

   STATEMENT OF HON. PRINCETON LYMAN, SENIOR ADVISOR, UNITED 
STATES INSTITUTE OF PEACE, U.S. INSTITUTE OF PEACE, WASHINGTON, 
                               DC

    Ambassador Lyman. Thank you very much, Mr. Chairman, and to 
Senator Corker and all the members of the committee here. This 
is a tragic situation and it is important----
    The Chairman. One moment.
    If we could ask those who are leaving to do so quietly and 
exit so we can hear these witnesses.
    Ambassador.
    Ambassador Lyman. I was asked to talk about the context and 
origins of this crisis, but let me make, if I can, two comments 
about some of the issues raised earlier. I think the importance 
of strengthening UNMISS, the U.N. peacekeeping operation, as 
was discussed here--it is absolutely vital that the people who 
have sought protection under the U.N. be protected, and that 
structure there needs a great deal of help. It will take more 
than the U.N. resolution, a lot of work, and I hope the United 
States can provide logistic and other support to get the added 
troops there.
    The mandate is there, but it needs to be activated. There 
has to be a much more aggressive role in protecting civilians 
and eventually monitoring the cease-fire. So I appreciate the 
attention that has been given to that.
    The second thing is I want to point out that the work of 
the special envoy, Don Booth, and the work of Ambassador Susan 
Page in Juba is very important. They are on the ground working 
with this issue all the time. But their presence there in both 
places sends a message that the United States is not walking 
away from this crisis. On the ground, as difficult as it is, 
the support to Ambassador Page in Juba as well as to the 
special envoy is very, very important and I am glad it was 
emphasized in the testimony.
    I want to talk about the runup to this crisis to illustrate 
the weaknesses of the institutions, the political and the 
military institutions in South Sudan, because it is important 
that as we look ahead to how these issues are resolved it is 
not simply a reconciliation between two men or even return to 
the status quo, because the underlying issues, the underlying 
weaknesses, are going to take something much more, and it is 
going to take a much more active role by the international 
community in solving these problems than we had before.
    Let me just describe two trends, two developments that led 
to this crisis. One, going back a year and a half or more, was 
the uneasiness and worry within the ruling party about the way 
the country was being governed. There was not attention to the 
party by President Kiir, not even to the Cabinet. He was ruling 
more on the basis of a small group of advisers and, even more 
disturbing, relying more and more on intelligence and security 
people to harass opponents. Journalists were assassinated, 
others being pushed out of the country.
    It became a major concern in our relations with South 
Sudan. So there was a real concern about bad governance.
    Then the second challenge came from Riek Machar signaling 
that he was going to challenge the President for leadership of 
the party and for the Presidency. Now, Machar is a very 
controversial figure. He had split from the SPLM in the 
nineties, fought against it. There was a major massacre of the 
Dinka. These things have not been forgotten.
    So the party was faced with a dilemma. If you give him--if 
you do not give him a path to the Presidency, there could be a 
crisis and a split. If you do give him a path to the 
Presidency, other people will be very upset. This was the 
dilemma the party had to deal with.
    Instead of having a party capable of doing it, President 
Kiir went the other direction. He froze and eventually 
dissolved all the party mechanisms. He treated the elements 
from both of these crises as just direct challenges to him and 
as inciting unrest.
    What it did was bring these two together, the dissenters in 
the party and Riek Machar, not because these people now mostly 
in detention were supporting Riek Machar's Presidency, but they 
came together to criticize the way these issues were not being 
addressed. Instead, by December President Kiir dissolved many 
of the policy institutions and it was very clear there was no 
resolution taking place. Then we had the incidents of December 
15 and all the unraveling.
    Now, I emphasize this because when we look ahead it is not 
enough to say, well, just reconcile. There needs to be a 
process that gets at the basic structures of governance in 
South Sudan: enough protection for democracy and human rights, 
for how parties are supposed to operate, et cetera. The 
constitutional process in South Sudan has not moved forward, 
and that gives us a vehicle for dealing with a lot of 
participation from civil society, the churches, et cetera, in a 
new constitution for South Sudan that would be developed and 
would precede the next elections and maybe bring new leadership 
to the country.
    But the international community is going to have to play a 
bigger role here. There should be international experts 
involved. There should be an advisory committee from the United 
Nations, the United States, African Union, et cetera.
    The same goes for the economy. This is an oil-driven 
economy. The oil now is uncertain. There has to be a much more 
dynamic relationship between the international community and 
South Sudan over the management of the economy and how people 
can be helped.
    This is going to be a new, much more active involvement. 
But otherwise, going back to the old institutions will not be 
sufficient. So it is a challenge.
    But we have invested, the United States, heavily in this 
process. Between Sudan and South Sudan, since 2005 the United 
States has spent, I estimate, around $12 billion in 
peacekeeping, in Darfur, in humanitarian activities and the 
birthing of South Sudan. Important American constituencies have 
been heavily involved in South Sudan's move to independence.
    We cannot turn back on this. It is going to take a lot of 
time and effort. If we recognize the fundamental weaknesses in 
these institutions, we and our partners can start to address 
this over the next several years.
    Thank you very much.
    [The prepared statement of Ambassador Lyman follows:]

                Prepared Statement of Princeton N. Lyman

    Thank you for the opportunity to testify on the conflict in South 
Sudan. As you know I have had a long experience in Africa and in 
particular over the past 3 years with Sudan and South Sudan. Earlier in 
my career, I served as U.S. Ambassador to Nigeria and to South Africa. 
I began working on Sudan in the fall of 2010 as a special advisor 
helping assure the success of the referendum in South Sudan that led to 
its independence. From March 2011 to March 2013 I was the U.S. Special 
Envoy for Sudan and South Sudan. I am currently senior advisor to the 
president of the U.S. Institute of Peace. The views expressed in this 
testimony are my own and not those of the U.S. Institute of Peace, 
which does not take policy positions.
    The situation in Sudan is a tragedy in every sense of the word, 
first of all for the people who are suffering and those who have 
already lost family members and friends; second because the 
independence for which South Sudanese fought for so many years is being 
wasted on internal warfare rather devoted to the needs of the people.
    I have been asked to address the larger context of this conflict, 
its historic and political roots. This conflict has several underlying 
causes. But to focus on some basic factors, it arises from two distinct 
contentious political developments over the past 2 years which became 
intertwined. Those developments took place within a fragile political 
and military structure and rather than being addressed and resolved 
were allowed to fester and eventually lead to the situation we have 
today.
    Those two developments were growing dissention within the ruling 
party over the way the country was being governed, and the decision by 
Vice President Riek Machar to challenge President Kiir for the 
leadership of the SPLM and then the Presidency in 2015.
    South Sudan achieved its independence in 2011 led by the leading 
liberation movement, the Southern People's Liberation Movement (SPLM). 
The SPLM and its national army, the SPLA, however are fragile 
coalitions of various militia and political entities that often fought 
against each other during the previous civil war. President Kiir did an 
admirable job in bringing almost all these factions and militia 
together in the final run up to independence. Several other holdouts 
were brought in later. But much of this coalition-building was achieved 
by adding the various militias to the national army, but never fully 
integrating them. Political alliances were covered over but did not 
resolve competing political claims. Both the party and the army were 
unable to contain the competing ambitions and dissensions that have now 
come into the open.
    The first of the developments that led to today's conflict was 
growing unhappiness within the government about the way President Kiir 
was managing affairs. Some leading members of the ruling party in 
particular felt that the President ignored the party in filling 
positions, ignored in fact the Cabinet, and made decisions based on the 
advice of a narrow group of advisors from his home area, Northern Bar 
El Ghazal. Parallel with these concerns were growing violations of 
human rights by the regime. Human rights advocates, journalists, and 
NGOs--both indigenous and international--were being harassed. A 
prominent journalist was assassinated in late 2012 with the government 
security apparatus suspected. President Kiir initially accepted, but 
later rejected, the U.S. offer of FBI help for investigating the 
matter. The U.S. Ambassador to South Sudan, Susan Page, was outspoken 
about these matters during the fall of 2012. They were the subject of 
my last visit to Juba in December 2012.
    At the same time as these problems were growing, the party faced 
another internal crisis. Vice President Riek Machar indicated that he 
was moving to challenge President Kiir for the SPLM leadership and 
thereafter for the Presidency in the election of 2015. That challenge 
would come to a head at the party conference scheduled for 2014.
    Machar is extremely controversial within the SPLM. A leader of the 
Nuer, the second largest ethnic group in South Sudan, he had split from 
the SPLM and fought against it for years during the civil war. In 1991 
his forces were involved in a major massacre of Dinkas, the largest 
ethnic group in South Sudan. That has never been forgotten, even after 
Machar united back with the SPLM in 2001. President Kiir subsequently 
invited Machar to be Vice President. But theirs was a difficult 
relationship. Kiir assigned Machar only limited authority or 
responsibilities.
    Machar's ambitions thus posed a major challenge for the SPLM. 
Denied a path to the Presidency, Machar could be a threat, either by 
leaving the SPLM and forming an opposition party, or worse, by drawing 
on his Nuer forces from within the SPLA and posing a military threat. 
On the other hand, providing him a path to the Presidency would surely 
arouse strong opposition within the SPLM.
    The tragedy is that the party, the SPLM, was not up to meeting this 
challenge. Kiir, in particular, chose not to use the party machinery to 
try to defuse or resolve it. Throughout 2013, he bypassed or delayed 
party mechanisms. In July he dismissed Machar and the entire Cabinet. 
The Secretary General of the party, Pagan Amum, was suspended and put 
under investigation for inciting unrest.
    And there is where the two developments began to intertwine. 
Dissenters within the SPLM, frustrated by their differences with Kiir, 
drifted toward Machar not as Presidential candidate, but as an ally in 
calling for more party democracy and authority. They also chose, in a 
joint press conference on December 6, 2013, to accuse the government of 
giving away too much in the negotiations with Sudan, an odd charge 
coming from among others Pagan Amum, who had also been the chief 
negotiator with Sudan for the SPLM. This alliance, if you can call it 
that, was diverse ethnically as well as in terms of factions, including 
for example the widow of SPLM leader John Garang. Kiir considered all 
of them hostile to his Presidency and more of them than Machar 
harboring Presidential ambitions. There was no meeting of the minds.
    Things spiraled thereafter out of control. Whatever the origin of 
the fighting that started on December 15, President Kiir saw this as a 
coup by Machar's forces. Whether it was or not is not entirely clear. 
In any case, Machar's compound was attacked, and the party dissenters 
were jailed. Machar fled to the field and his army supporters left the 
SPLA to fight for him. Another sometime integrated, sometime outsider 
militia leader, Peter Gadet, joined Machar's forces. A former Governor 
of Unity State, who had been dismissed by Kiir, also joined Machar and 
is now the lead negotiator for Machar in the talks in Addis. The 
coalition and unity that Kiir had painstakingly built in the runup to 
independence has been unraveling.
    In this situation of course, ethnic factors have played a role and 
once fighting began, became even more prominent. The fact that Kiir and 
most of the SPLM leadership is Dinka, and Machar is a leader of the 
Nuer, is not irrelevant. And once the dogs of war have been let loose, 
ethnic differences become the vehicle of mobilization, and the source 
of massacres, human rights violations and hatred. But it is important 
to remember that the sources of discontent within the SPLM were not 
ethnically based, and the most prominent of those who sided with Machar 
in the press conference of December 6, and are now in prison, are not 
Nuer. The underlying political issues that need to be addressed go 
beyond ethnicity.
    The weakness of South Sudan's political institutions will be a 
continuing factor in addressing these needs. A comparison with South 
Africa is perhaps useful. The ANC in South Africa had decades of 
political development before coming to power in 1994. The ANC was a 
political movement with an armed wing that was developed much later. 
The SPLM was born from the decades of fighting in the bush. It is an 
army with a political wing. The SPLM government that took office in 
2010 was in many ways still more a liberation army than a government. 
The weakness of political institutions, the overlap of party and 
government, and party and army, all contributed to the inability of the 
SPLM as a party to resolve these growing developments. Again by 
comparison, the ANC faced and resolved a major challenge to its 
leadership in 2008, even causing the resignation of the president, 
Thabo Mbeki, without bloodshed or unrest. The SPLM was not at all able 
to manage such a crisis.
    In looking ahead, the immediate need is to stop the fighting and 
allow for humanitarian access to all who need it, with protection for 
all those within UNMISS camps. But the political talks that follow need 
to address the underlying issues that led to this disaster. There 
cannot be a simple return to the status quo ante, with Machar once 
again Vice President all the rest. There has been too much blood, and 
it would not solve anything.
    The hard task ahead is to develop a new political structure, 
defining more clearly the democratic rights of all South Sudanese, that 
lays down the rules of political competition, and which allows for 
development of stronger political institutions, not only the leading 
party, the SPLM, but others. South Sudan has not yet developed a 
permanent constitution. This process, if placed under independent 
leadership, such as by a Supreme Court Judge, could be such a vehicle. 
But the process will have to be opened up much wider than previously, 
with active citizen, church, and civil society participation. 
Meanwhile, the long process of integrating, disarming, and ultimately 
reducing the size of the military forces and militia must be 
undertaken. But that can only be undertaken in a context within which 
fighting has stopped, the cease-fire is well monitored, and a credible 
political process is under way. All of these are hard tasks and they 
will demand a much more active and participating role of the 
international community than heretofore. Institutions take time to 
develop and without proactive outside participation, South Sudan's 
institutions, demonstrably weak, are not likely alone to be up to these 
demands. A new partnership between South Sudan and the international 
community must now be forged to preserve all that has been invested in 
this new nation.

    The Chairman. Thank you.
    Mr. Prendergast.

 STATEMENT OF JOHN PRENDERGAST, COFOUNDER, SATELLITE SENTINEL 
            PROJECT, ENOUGH PROJECT, WASHINGTON, DC

    Mr. Prendergast. Thank you, Mr. Chairman and Ranking Member 
Corker. This committee in particular has been crucial to the 
development of United States policy to Sudan for now years, 
even decades, and it sends, I think, having this hearing right 
now sends a really important signal to the people of South 
Sudan that we care and that we are watching very closely. So I 
thank you for that.
    I want to move right to the solutions, on page four of my 
testimony. I want to propose four ways that the administration 
and Congress can help right now in stabilizing the country and 
supporting the broader peace process that many of you have 
talked about.
    The first way that the United States can help, I think, is 
to help expand this peace process beyond just a deal between 
the guys with the biggest guns. This goes to the heart of what 
you were saying, Senator Menendez, in your initial questions. 
The United States can play I think a major role in helping to 
ensure that the current process that is unfolding in Addis does 
not repeat the mistakes of past mediation efforts in Sudan and 
South Sudan. And the mistakes are legion and I have tried to 
document some of them in the written testimony earlier.
    This will require, I think, a team of diplomats that can be 
accompanying our current special envoy. Let me just say that 
Sudan has itself, not South Sudan, Sudan itself has no peace 
process to speak of. There are stovepipe efforts with Darfur, 
with the Nuba Mountains, with Blue Nile, eastern Sudan. All 
these places, particularly the first three, there are huge 
conflicts with thousands and thousands of deaths over the 
course of the last year alone and hundreds of thousands of 
displaced, newly displaced people over the course of the last 
year alone. Nothing is happening on that front.
    So we need a team, a cell, I think, in Addis of people to 
work with our special envoy, to be able to help deepen these 
processes. Particularly on the south, I want to associate 
myself very strongly with what Ambassador Lyman said. There are 
a number of layers to the peace process. there is the immediate 
cessation of hostilities, which does involve the guys with the 
biggest guns, but then you have to bring in others. You have to 
get involved in the governance reforms that have to be part of 
this process.
    There are reasons why the war erupted so quickly, whether 
it was a coup or not, and spread to all the different regions 
of the country. Well, there is a lot of problems, and so they 
are not being addressed through the regular channels, the 
political channels. There needs to be reform.
    The intercommunal reconciliation efforts that sort of 
petered out need to be really revived as part of this process. 
The constitutional process that Princeton talked about, and 
then, of course, support for army reform and DDR. We can talk 
more about that if you want in the Q and A, because I think it 
is really important, the kind of things that we were talking 
about, Senator Kaine.
    So I think their work gets backed, of course, by Susan Rice 
and Secretary Kerry and President Obama himself, Ambassador 
Power. They have all been making contributions in a good way, 
just like in past administrations we have seen that from 
Secretary Powell and others and Secretary Rice in the CPA 
negotiation. That needs to continue. But I think it is really 
the team, having the team on the ground.
    For its part, Congress can be helpful in ensuring that 
these resources are available for the diplomatic efforts for 
building that kind of a team, to be able to undertake 
protracted negotiation, because that is what it is going to 
require for the peace to potentially have a chance in South 
Sudan and in Sudan, so make it a package.
    The second way the United States can help is I think to 
reinvest the troika. The troika involved the three countries, 
the United States, Britain, and Norway, and it went back to the 
late nineties, over three administrations. It played a crucial 
role in supporting the mediation process leading up to the 2005 
comprehensive peace agreement and its implementation.
    I think the troika can play an even important role, more 
important role, in the new peace efforts in South Sudan and in 
the ongoing effort to try to build a peace process in Sudan 
itself if they added another member, and that is China. 
Bringing China into the tent in a more formal way would 
increase the troika's influence on the process and the parties. 
We need leverage, and engaging even India, with major oil 
involvement in this regard, would also be potentially 
productive.
    So I think a high-level White House effort should be 
undertaken with Beijing to find common ground on what our two 
countries can support together in South Sudan. A lot of work 
has already been done. I do not want to undermine or say 
anything negative about that. But a very high-level specific 
effort to try to figure out how the United States and China can 
work together. I think they can do that in the context of what 
could be a revived troika or quartet if we want to formalize 
it.
    For its part, I think China--the Congress, sorry, can help 
by engaging directly with some officials from China and 
exploring the ways that the United States and China can work 
together for peace in the Sudan.
    The third way for the United States to help is to collect 
evidence of atrocities and to sanction the perpetrators. This 
goes to the heart of what Senator Cardin was talking about 
earlier. I think we all know what that means, but there are two 
ways you can do it. You can collect the evidence and use that 
evidence immediately to impose targeted sanctions against 
individuals who are found to be perpetrating, suspected of 
perpetrating mass atrocities and leading these kind of things. 
And you can collect that evidence and turn it over to bodies 
and work for the creation of bodies or the existing bodies like 
the ICC, but the creation of bodies like a mixed court in South 
Sudan that could work to begin to end this cycle of impunity 
and begin to prosecute those that are committing these kinds of 
atrocities.
    As I think everyone on this committee and on this panel 
thinks, if we do not start to deal with those kinds of 
questions it just leads to a deepening of a cycle of violence 
and impunity that we have seen not only in South Sudan, but, as 
was mentioned already, in a number of other places in Africa 
and around the world.
    For its part, I think Congress could ask for regular 
briefings from the administration, formal briefings on the 
evidence of atrocities and how specifically the United States 
is responding on these two areas--targeted sanctions and 
prosecutions--what are we doing?
    The fourth way the United States can help is to help 
negotiate humanitarian access. I think the United States has 
been admirable, going all the way back to when Kate was running 
things, admirable in the way we have responded to the 
humanitarian crises. We have a long history of negotiated 
access agreements in South Sudan that we can build on. I think 
we do not want to wait a long time before we get those 
negotiated access agreements to get to people.
    Particularly, there are people all over South Sudan, but I 
want to highlight one group of people that are extremely at 
risk. Those are those refugees from Sudan, from the Nuba 
Mountains and Blue Nile, who are in South Sudan, and no aid 
right now. They have no resources to call upon, and their home 
areas in Sudan are the subject right now of intensive bombing 
campaigns and offensives by the Government of Sudan in the Nuba 
Mountains and Blue Nile today. So being able to negotiate the 
access up to those areas and ensure that the parties uphold 
those agreements is terribly important.
    In conclusion, the track record of this Congress I think, 
particularly the Senate Foreign Relations Committee, has been 
clear over the last three administrations regarding Sudan and 
South Sudan. I know I speak for my fellow panelists and so many 
others in expressing really our deep appreciation for your 
continuing advocacy on behalf of the people of Sudan and South 
Sudan.
    Thank you very much.
    [The prepared statement of Mr. Prendergast follows:]

                 Prepared Statement of John Prendergast

    Thank you, Chairman Menendez and Ranking Member Corker, for the 
opportunity to testify at this turning point for South Sudan. The full 
committee's dedicated attention to this issue is very helpful. This 
body--including your predecessors Senators Kerry and Lugar--has played 
a pivotal role in the development of U.S. policy on both Sudans, and it 
is good that is continuing.
    I would like to focus my prepared remarks on the way forward for 
South Sudan. The U.S. Government has already shown a welcome level of 
attention and engagement on this issue. Still, there is always much 
more that can and should be done to help stop the fighting, secure a 
durable peace, protect civilians, hold perpetrators accountable, and 
start to heal this new country in its rocky process of state formation.
    Before I begin, I want to reveal a controlling bias in my 
testimony. I believe that the United States and broader international 
community can finally learn the lessons from past failed peace efforts, 
and that a new process can evolve in Addis Ababa that takes into 
account the structural and substantive deficits of previous 
initiatives. And I believe that the United States can play a crucial 
role in helping to construct a more effective process, and then help 
build the international leverage necessary to see it through to 
successful completion.
     what needs to happen to forge a negotiated political solution?
    The ``good'' news is that we already know what doesn't work. We 
have seen too many peace conferences that kept civil society, religious 
leaders, grassroots activists and women out of the room. Our collective 
experience has shown that partial and noninclusive peace agreements 
that are negotiated among only those with the biggest guns don't lead 
to lasting peace. Additionally, superficial power-sharing agreements 
don't work if they do not include professional, transparent, and well-
funded efforts at army reform and the demobilization and reintegration 
of former combatants back into society. South Sudan's struggle to 
establish its own national reconciliation and dialogue process offers a 
vivid example of the need to address these issues within the text of 
binding peace agreements too. Otherwise, DDR, SSR, and TRCs just become 
buzzword acronyms without any impact.
    The 2005 Comprehensive Peace Agreement stopped the fighting between 
Khartoum and the Sudan People's Liberation Movement in the South. In 
terms of providing a stoppage of the primary North-South war, it was 
successful. But the internal wars within North and South were left 
unaddressed. Deadly conflict has 
re-erupted in Darfur, South Kordofan, and Blue Nile, with Darfur last 
year having one of the highest rates of newly displaced people in the 
world. Similarly, the Comprehensive Peace Agreement and what followed 
did not tackle the deep fissures within South Sudan itself, 
particularly within the ruling party and the army, but also between 
local communities who had borne the brunt of the war.
    What is needed to address the crisis in South Sudan is a broad 
expansion beyond the approach taken by those who negotiated the 
Comprehensive Peace Agreement, and those that are trying to broker 
isolated deals in Darfur, the Nuba Mountains and Blue Nile, and Eastern 
Sudan. In South Sudan, of course a deal between the combatant forces 
for a cessation of hostilities is a first order priority, but what 
follows needs to be much more inclusive, transparent, and multilayered 
than any of the processes that have come before if sustainable peace is 
to have a chance in South Sudan. This requires a broadening of both 
substance and structure.
    In terms of structuring talks for a lasting political solution, the 
South Sudan peace process will have to become much more inclusive. 
Women and youth, who have been notably absent from the Addis process, 
must be welcomed. The release of the 11 senior level ruling party 
officials being detained by their government, representing significant 
political constituencies, and their subsequent involvement in Addis 
will be essential for the credibility of these talks. Church leaders 
who have played a major role in previous communal reconciliation 
initiatives need to be part of the process as well. Furthermore, it 
will be necessary over time to find a way to engage potential spoilers, 
whether armed groups or disaffected constituencies from different 
regions in South Sudan.
    South Sudanese have already gone through an extensive consultative 
process around the New Deal Compact, which focused on both peace-
building and state-building goals. Additionally, the National 
Democratic Institute conducted a nationwide survey on views about the 
constitution. Most recently, 1,200 people were surveyed by the South 
Sudanese NGO, the Community Empowerment for Progress Organization at 
the end of December 2013, after fighting started in Juba. Among other 
questions, they were asked their views on the roadmap for peace and 
stability in South Sudan. These efforts have already gathered valuable 
perspectives from those most affected by the violence: civilians and 
average citizens. Negotiators should take them into account.
          what would a sustainable deal potentially look like?
    A quick and dirty power-sharing deal is not the answer to South 
Sudan's problems. Simply redistributing power to combatant factions on 
the basis of the territory under their control would be a huge error. 
Similarly, essentializing South Sudanese political constituencies into 
their ethnic component parts would also be a mistake. A deal that 
overemphasizes sharing power between ethnic groups misses the root 
causes of this violence. Any interim arrangements or transitional 
government structure should seek to avoid these pitfalls. There will be 
great temptation to speed to a conclusion of the talks, which would 
leave major conflict drivers unaddressed.
    A truly multilayered approach would address the following 
priorities in different formats:
    Broad, inclusive, national dialogue process: The regional IGAD 
mediation team needs to shepherd an inclusive process focused on a 
broad national dialogue process and governance reform. For too long, 
the ruling party's structures have languished due to infighting and 
neglect. Instead, patronage networks based on individual proximity to 
power, military might, and wealth evolved. As a consequence, a 
political challenge which could have been resolved through dialogue 
mutated into armed conflict that has since engulfed the country. Only a 
truly inclusive national dialogue process will prevent that from 
happening again, one that addresses governance structures, ruling party 
cleavages, a legitimate constitution process, and security sector 
reform. All of this should happen BEFORE there are elections with a 
level playing field. Otherwise, South Sudan will continue to suffer 
from their leaders' perception that taking up arms is the easiest or 
only way to gain power or leverage.
    Accountability: Since South Sudan lacks a functioning judicial 
system, the specter of impunity or rushed military prosecutions is very 
real. Credibly holding perpetrators responsible for crimes committed in 
the past 3 weeks will require setting up independent mechanisms for 
investigation and prosecution. Otherwise a culture of impunity will 
prevail, preventing future reconciliation. The proposal for a mixed 
court, which would involve South Sudanese and international justice 
sector personnel should receive some discussion, as it has in other 
post-conflict settings.
    Reconciliation: Church-led grassroots reconciliation and truth-
telling efforts would help complement more formal judicial proceedings. 
Intercommunal cleavages have been once again inflamed over the last 
month. Long-term processes aimed at coexistence and cooperation will be 
critical to sustainable peace.
    Army reform and DDR: One of the main unaddressed fault lines in 
South Sudan existed within the army, and that erupted at the first sign 
of stress in December. As part of any peace implementation process, 
much greater effort and transparency must go into reforming the army 
and police force. Also, any deal will require a serious demobilization 
and reintegration program for ex-combatants, with real livelihood 
options for those leaving armed groups.
         how can the united states help stabilize the country 
                     and support the peace process?
    Expand the peace process: The United States can play a major role 
in helping to ensure that the current peace process unfolding in Addis 
does not repeat the mistakes of past mediation efforts in Sudan and 
South Sudan. This will require a team of diplomats led by our current 
special envoy but supplemented by issue and process experts who can 
help work all of the layers of peacemaking: the immediate cessation of 
hostilities and its monitoring, the national dialogue and governance 
reform processes, the constitution process, the intercommunal 
reconciliation efforts, and the support for army reform and DDR. Their 
work should be backed by continuing high level engagement by key U.S. 
officials, including President Obama, National Security Adviser Rice, 
Secretary Kerry, and Ambassador Power, all of whom have already made 
important contributions to preventing further conflagration. 
Development assistance should support grassroots peace initiatives. 
Already, South Sudanese have established a decentralized think tank 
called Fresh Start South Sudan to discuss governance, peace-building, 
social services and future prosperity. Others are engaged in campaigns 
that emphasize alternatives to violence, including ``I Choose Peace'' 
and ``My Tribe Is South Sudan.'' These initiatives deserve greater 
attention and our logistical and financial support as well.
    Congress can be helpful in ensuring that the resources are 
available for these diplomatic efforts, which for it to have a chance 
at success will have to be protracted and sustained.
    Reinvent the Troika: The Troika (United Kingdom, Norway, and the 
United States) played a crucial role in supporting the mediation 
process leading up to the 2005 Comprehensive Peace Agreement and its 
implementation. The Troika countries could play an even more important 
role in supporting the new peace effort in South Sudan if it expanded 
its membership by one: China. Bringing China into the tent would 
increase the Troika's influence on the process and the parties. 
Engaging India in this regard would also be potentially productive. A 
high-level White House effort should be undertaken with Beijing to find 
common ground on what our two countries can support together in South 
Sudan (and Sudan as well), and then integrate those understandings into 
a revived Troika, or Quartet.
    Congress can help by engaging Chinese officials as well in 
exploring ways the United States and China can work together for peace 
in the Sudans.
    Collect and punish evidence of atrocities: The United States should 
begin collecting evidence of human rights crimes and instances where 
humanitarian aid workers are prevented from doing their work. The 
African Union has already expressed a willingness to impose targeted 
sanctions on any party implicated in ``inciting people to violence, 
including along ethnic lines, continuing hostilities, undermining the 
envisaged inclusive dialogue, hindering humanitarian operations, 
undermining the protection mandate of UMISS and carry out acts of 
violence against civilians and unarmed combatants.'' The United States 
should follow suit, and work within the U.N. Security Council to begin 
consultations around passing a resolution establishing a targeted 
sanctions regime, as conceptualized by the African Union. Drawing on 
the Syrian example, they should also push actively for the creation of 
an Independent International Commission of Inquiry into crimes 
committed by all factions and combatants. While both the South Sudanese 
Government and the U.N. peacekeeping mission have already begun these 
documentation efforts, an independent commission will allow findings to 
be depoliticized. Further, the United States should support the 
establishment of a mixed court, drawing on both South Sudanese and 
international law, to ensure fair trials and prosecutions.
    Congress could help by asking for regular briefings by the 
administration on evidence of atrocities and how the United States is 
responding. If patterns of serious abuses are being found to be 
perpetrated by South Sudan Government forces, this should lead to a 
reevaluation of our nonhumanitarian aid programs.
    Negotiate humanitarian access: The humanitarian situation in South 
Sudan is dire, and it has a direct impact on neighboring areas inside 
Sudan as well, particularly in the Nuba Mountains and Blue Nile 
regions. Negotiating an access framework, notwithstanding zones of 
control, is essential and must proceed along a parallel track, with 
potential U.S. leadership. It would be a mistake to connect 
humanitarian access negotiations to the broader political mediation. 
All South Sudanese deserve consistent and unimpeded humanitarian 
assistance, regardless of if they live in areas held by rebel or 
government forces. Refugees from Sudan living in camps along the 
border, especially in Yida and Maban, deserve special attention. 
Following the evacuation of international staff and the U.N. mission, 
these concentrations of civilians near the Sudan/South Sudan are 
particularly vulnerable. They are trapped between two active conflict 
zones, have nowhere to run, and their supplies are nearly exhausted.
    Congress can raise the alarm bells regarding specific at-risk 
populations throughout South Sudan, as well as those in Yida camp, 
Maban camp and trapped across the border in war-torn Nuba and Blue 
Nile, and continue to ensure the funding is available for innovative 
relief interventions that will no doubt continue saving countless South 
Sudanese and Sudanese lives.

    The Chairman. Thank you.
    Ms. Knopf.

STATEMENT OF HON. KATE ALMQUIST KNOPF, ADJUNCT FACULTY, AFRICA 
  CENTER FOR STRATEGIC STUDIES, NATIONAL DEFENSE UNIVERSITY, 
                         WASHINGTON, DC

    Ms. Knopf. Thank you, Chairman Menendez, Ranking Member 
Corker, and members of the committee, for the opportunity to 
testify before you today.
    In the space of nearly 4 weeks, more than a decade of 
humanitarian and development progress to improve the lives of 
the people of South Sudan has been undone by the outbreak of 
violence between forces loyal to President Salva Kiir and 
former Vice President Riek Machar. As others have indicated 
today, the violence could devolve further into full-scale civil 
war, resulting in immense human suffering with severe 
implications for regional peace and security. I would like to 
offer a few observations on the current crisis and then make 
several recommendations.
    Let me be clear from the outset. Upon South Sudan's 
independence in 2011, the United States pledged its commitment 
to stand by its people, to continue to stand by its people. We 
should remain resolute in this commitment, not flinching in the 
face of recent developments. The United States has unique 
influence and a deep reservoir of good will in South Sudan that 
gives it an indispensable role in overcoming the current 
crisis.
    My first observation is that this crisis was neither 
inevitable nor ethnically motivated. It is a political crisis 
precipitated by the failure of President Salva Kiir and former 
Vice President Riek Machar to settle their political 
differences without resort to violence. They can stop it, and 
the first priority is inducing them to do so.
    Secondly, institutional development takes decades. 
Political transitions are inherently messy and it is not a 
surprise that there is a crisis in governance. It is in fact to 
be expected. While there is a great temptation to play the 
blame game, it is important to recognize that South Sudan was 
not afforded self-determination based on its capacity for self-
rule. It won self-determination to liberate South Sudanese from 
oppression and end decades of war.
    South Sudan must develop its political institutions 
indigenously and from the ground up. It is unreasonable to 
expect these institutions to develop and take root in 2\1/2\ 
years.
    Sadly, the government's record since independence is one of 
deliberate undermining and erosion of the nascent mechanisms of 
accountability between state and society by those who hold 
power. This is the root of the current crisis and the 
fundamental issue that must be addressed if and when the 
fighting ends.
    Thirdly, the United States has deep relationships with the 
protagonists, an unparalleled degree of influence, and the 
responsibility to use that influence to broker a return to 
nonviolent political competition. This is not a time for 
incremental approaches. While the regional IGAD and AU 
processes to mediate between the parties are to be supported, 
the United States must continue to deploy the full weight of 
its diplomatic capabilities on the parties directly and 
multilaterally, including through the U.N. Security Council.
    The United States should move to invoke the President's 
authorities to institute travel bans and asset freezes on 
senior leadership on both sides, as well as prepare to extend 
those sanctions multilaterally through a resolution in the U.N. 
Security Council, if the following actions are not imminently 
forthcoming:
    One, a cessation of fighting without further stalling or 
delay. The United States and other international partners must 
foreclose the military option for either side, including by 
explicitly discouraging regional actors, such as Uganda and 
Sudan, from directly or indirectly participating in the 
conflict.
    Two, a release of the 11 political detainees arrested 
following the outbreak of fighting in Juba. They have been 
targeted on the basis of their public dissent with President 
Kiir and their participation in the Addis Ababa talks is vital 
to reaching a political arrangement.
    Three, the impartial delivery of urgently needed 
humanitarian aid, including providing humanitarian actors 
fully, unimpeded access to all those in need, not just in the 
protected enclaves of UNMISS bases, and most especially to 
civilians caught in active conflict zones, such as in the 
cities of Bor and Bentiu.
    Four, full cooperation with the humanitarian monitoring, 
including with a formal U.N. commission of inquiry which should 
be established to investigate and document human rights abuses.
    Neither Salva Kiir nor Riek Machar is indispensable to a 
stable, peaceful, democratic South Sudan. Courageous leadership 
is required, however, to rise above personal ambitions and 
animosities to achieve a cease-fire and an interim political 
settlement. Escaping cycles of violence is hard, but it can be 
done.
    If an interim political settlement is reached, the South 
Sudanese leadership will need to dedicate itself to three 
critical tasks to restore confidence and demonstrate 
accountability to its people: building coalitions to support 
key institutional reforms in citizen security, justice, and 
jobs; expanding space for independent voices so a national 
dialogue is possible; and tangibly demonstrating the state's 
responsiveness to its citizens, particularly by drafting and 
adopting a permanent constitution, fostering national and local 
reconciliation, and conducting fair and peaceful elections. 
Prioritizing road networks and radio communications is a must 
to achieve any of these tasks.
    The United States is the largest bilateral donor to South 
Sudan and it should remain so. Significant areas of the 
country, in fact, are peaceful and government, community, and 
church leaders in these areas are to be commended and supported 
in their efforts to stem the conflict's spread, including 
through the continuation of development partnerships. An abrupt 
stop to development assistance will only worsen the national 
crisis, not alleviate it.
    USAID has been providing development assistance to South 
Sudan continuously since 1998, first in supporting stability 
through international and local partners and eventually through 
the newly independent government. The gains from these programs 
should not be jettisoned hastily or unnecessarily. Doing so 
will only make the task of stabilization and reconstruction 
that much harder if and when a political settlement is reached, 
further harming the people of South Sudan.
    Let me conclude on a practical note. The U.S. Government's 
ability to respond effectively to this crisis, whether through 
diplomacy, humanitarian assistance, or development, will be 
significantly handicapped without the presence of Americans 
with deep knowledge and relationships in South Sudan. As the 
former head of USAID's Africa Bureau and the former mission 
director in Sudan, I understand all too well the tradeoffs 
between security and impact. It is imperative that the U.S. 
Government staff be allowed to return to South Sudan as quickly 
as possible.
    Thank you again for this opportunity and I look forward to 
your questions.
    [The prepared statement of Ms. Knopf follows:]

               Prepared Statement of Kate Almquist Knopf

                              introduction
    Chairman Menendez, Ranking Member Corker, and members of the 
committee, thank you for the opportunity to testify before you today on 
the fluid situation in South Sudan. It is an honor to appear before the 
committee again.
    In the space of 3 short weeks, more than a decade of humanitarian 
and development progress to improve the lives of the people of South 
Sudan has been undone due to the outbreak of violence between forces 
loyal to President Salva Kiir and former Vice President Riek Machar. 
And the very real potential exists for the tragedy to grow far worse. 
Over the course of the 1983-2005 civil war, some 2 million lives were 
lost, 4 million were internally displaced, and over 600,000 were forced 
to flee the country. Much of this human suffering resulted from 
internecine southern fighting, even more so than it resulted from 
conflict between north and south. While the full impact cannot yet be 
fully assessed, the current crisis has easily claimed thousands of 
lives, displaced hundreds of thousands from their homes, and forced 
tens of thousands to flee across borders. If not immediately curtailed, 
the violence could devolve into full-scale civil war with far-ranging 
implications for regional peace and stability and immense human 
suffering.
    I first visited South Sudan in 1995 while working for the 
international NGO World Vision. I later had the honor to work on the 
Sudan and Darfur peace processes for 8 years as an official at the U.S. 
Agency for International Development (USAID), including serving as the 
first director of the USAID/Sudan mission after 14 years of closure, 
the first U.S. representative to the international Assessment and 
Evaluation Commission monitoring implementation of the CPA, and 
subsequently as assistant administrator for Africa. I will offer a few 
observations on the current crisis and then make several 
recommendations both for immediate priorities and for stabilization 
strategies if and when an interim political settlement is reached, 
including the role of the United States and other international donors.
                              observations
    1. The current crisis is neither inevitable nor unstoppable. It is 
political and ultimately a failure of South Sudanese leadership. The 
leaders who started the crisis can stop it.
    South Sudan began its independence in 2011 with both great promise 
and great peril. Promise from the abundance of its natural resources, 
the outpouring of international support, and its uncontested 
legitimacy, even from the Government of Sudan (GOS) in Khartoum. Peril 
from its unresolved issues with Khartoum, including over oil and 
borders; the deep wounds of 22 years of civil war, including trauma 
from bitter intercommunal fighting; virtually no institutional legacy 
of self-governance to draw on; extremely limited physical and 
telecommunications networks to connect the country; and a very youthful 
and well-armed citizenry.
    The existence of these conflict risk factors did not predetermine 
the current crisis, however. Rather, it is the direct result of the 
failure of President Salva Kiir and former Vice President Riek Machar 
to avoid resorting to violence to settle political differences. 
Ultimately, it is the absence of institutional alternatives in South 
Sudan to conflict resolution through violence that makes a crisis on 
this scale possible. While deep ethnic conflict fault lines exist and 
violence has arisen along some of these lines--whether spontaneously, 
tacitly, or explicitly at the behest of the embattled leadership 
remains to be determined--the underlying political dispute is not 
ethnically based or motivated. Nor is it the case that the entire 
country has devolved into political or ethnic violence. Significant 
areas of the country, in fact, remain peaceful, and government, 
community, and church leaders in these areas are to be commended for 
and should be urged to continue their efforts to stem the conflict's 
spread.
    In parts of the country where violence is threatening massive 
numbers of civilians--in Juba and Jonglei, Unity, and Upper Nile States 
most especially--it is on the leaders of both sides of the conflict to 
immediately cease fighting. Irrespective of the grievances regarding 
undemocratic practices and the usurpation of internal SPLM party 
processes leveled at President Kiir and of the allegations of an 
attempted coup leveled at Dr. Machar, recourse to violence resulting in 
the bloodshed and humanitarian distress that has ensued since December 
15 is unjustified and unacceptable. The longer the violence continues, 
the harder it will be to stop given patterns of retribution among 
communities in South Sudan.

    2. Institutional development takes decades, and political 
transitions are inherently messy.
    In moments of crisis and catastrophe, there is a great temptation 
to play the blame game--who is at fault, what could have been done 
differently to prevent the current developments from coming to pass. In 
this regard, many have already commented on the governance failures of 
the Government of the Republic of South Sudan (RSS) since independence 
and on the inadequacy of the response to those failures by the 
international community, including the United States. While these 
debates will continue, it is important to recognize that South Sudan 
was not afforded self-determination based on its capacity for self-
rule; it won self-determination to liberate South Sudanese from 
oppression and end decades of war. Because of South Sudan's particular 
history, the process of state formation under way there is arguably 
unique--it is not a situation of post-colonial independence or of 
recovering earlier systems and traditions of self-government. It is an 
exercise in building a new nation and state from the ground up. 
Empirical evidence on state formation and institution-building tells us 
that it takes decades for institutions of governance to develop and 
that these institutions cannot simply be borrowed or imported from 
elsewhere. South Sudanese must develop them for themselves. It is not 
reasonable, therefore, to expect political institutions to develop and 
take root in 2 years (or even 8, if one counts the 6-year interim 
period) time.
    Just as the institutions of accountability and governance are in 
their earliest stages of development, the political leadership of South 
Sudan is undergoing an arduous transition from liberation movement to 
civilian government. Again, experience from democratic transitions 
elsewhere is clear--in the short term, these transitions are 
contentious processes as old orders of power and control are challenged 
and replaced with new ones. No amount of external intervention or 
influence can smooth out all the bumps of such a transition. So while 
the messiness of South Sudan's transition is not a surprise--and is, in 
fact, to be expected--the country is not doomed to years of instability 
and conflict; progress can be made during the transitional period given 
responsible leadership.
    It is reasonable to expect the young government to demonstrate 
efforts toward instituting principles of fairness, transparency, 
inclusiveness, and respect for basic human rights, and for the 
country's international partners to support and reinforce these 
principles. Sadly, the government's record of the past 2.5 years since 
independence is the opposite: one of deliberate undermining and erosion 
of nascent mechanisms of accountability between state and society by 
those who hold power. This is the root of the current crisis and the 
fundamental issue that must be addressed once the fighting ends.

    3. The United States has unparalleled influence in South Sudan and 
therefore a responsibility to intervene diplomatically.
    When the political transition becomes violent, a moral imperative 
to help facilitate a return to nonviolent political processes becomes 
paramount. In this regard, the United States is uniquely positioned to 
intervene diplomatically to help end the violence and prevent an even 
worse catastrophe. Having initiated and championed the peace process 
that led to the Comprehensive Peace Agreement and ultimately the 
independence of South Sudan, as well as invested billions of dollars in 
humanitarian, development, and security assistance to support these 
ends, the United States has deep relationships with the protagonists, a 
reservoir of good will among South Sudanese, an unparalleled degree of 
influence, and the responsibility to use that influence to broker a 
return to nonviolent political competition. This is not a time for 
incremental approaches or sequencing of efforts. While the regional 
IGAD and AU processes to mediate between the parties are to be 
supported, the United States must continue to deploy the full weight of 
its diplomatic capabilities on the parties directly and through the 
U.N. Security Council. The tireless efforts of Ambassador Susan Page 
and Special Envoy Don Booth to respond to the crisis must continue to 
be supported by the highest levels of the Obama administration, 
including continued direct interventions by Secretary of State John 
Kerry and National Security Adviser Susan Rice, both of whom have 
important personal relationships with the protagonists.
                          immediate priorities
    President Kiir and Dr. Machar both must match their words with 
actions without any further delay, excuses, or stalling. The United 
States and the international community should move to impose penalties 
on both sides if the following actions are not immediately forthcoming:
1. End the fighting
    Utmost pressure must be brought to bear on both parties to end the 
violence immediately. Specifically, the United States and other 
international partners must foreclose a military option for either 
side. The United States and the U.N. Security Council should explicitly 
discourage regional actors from directly or indirectly participating in 
the conflict, including prohibiting the transfer or sale of arms and 
weaponry that could further fuel it. Inviting Ugandan or other regional 
forces to intervene will only escalate and prolong the conflict as well 
as compromise the ability of IGAD to mediate between the parties 
(especially President Museveni, who could play a valuable role in this 
regard). If the Government of the Republic of South Sudan needs 
assistance to secure the capital, Juba, it could request the U.N. 
Mission in the Republic of South Sudan (UNMISS) take control of the 
city's security. The U.N. Security Council should then ensure that 
UNMISS has the capacity to do so while holding it accountable for fully 
exercising its Chapter VII mandate throughout the country. Regardless, 
the RSS must accept the immediate deployment of additional UNMISS 
forces without further delay.
2. Release the 11 political detainees to the ICRC
    The RSS should immediately release to the International Committee 
of the Red Cross (ICRC) the 11 political detainees arrested following 
the outbreak of fighting in Juba. These 11 individuals are senior 
members of the SPLM, many of them were key to the negotiations that led 
to South Sudan's independence, and they have clearly been targeted on 
the basis of their public dissent over SPLM party deliberations. Their 
participation in talks on a political arrangement going forward is 
vital to bridging the divide between President Kiir and Dr. Machar. As 
well, their release would signal the government's renewed commitment to 
a genuine political process to manage the country's forthcoming 
leadership transition.
3. Allow full and unimpeded access for humanitarian response
    It is of utmost importance that the protagonists compel their 
forces to respect the delivery of humanitarian aid on the principles of 
impartiality and neutrality, including providing humanitarian actors 
full, unimpeded access to all those in need--not just in the protected 
enclaves of UNMISS bases and compounds and most especially to civilians 
caught in active conflict zones such as in the cities of Bor and 
Bentiu. Establishing additional ``humanitarian safe zones'' would, in 
my view, be problematic and inadvisable. They would be practically 
infeasible to establish and defend; they would divert attention from 
the majority of the displaced and conflict-affected population who are 
not in or able to make it to these designated areas; their creation 
would risk encouraging greater population displacement and dependency; 
and they would cede the logic of a protracted crisis to the 
protagonists.
    The United Nations has moved swiftly and expertly to respond to the 
tremendous civilian protection and humanitarian needs ensuing from the 
outbreak of fighting. U.N. Deputy Special Representative Toby Lanzer 
and the entire U.N., international, and NGO community still present in 
South Sudan--particularly South Sudanese staff and organizations--are 
to be commended for their heroic work thus far to meet the escalating 
needs, often at great personal risk. The United States should continue 
to support these efforts to its utmost ability. I also commend the 
United States swift establishment of a Disaster Assistance Response 
Team (DART) in Nairobi and the provision of $49.8 million in additional 
humanitarian funding to address the grave and growing humanitarian 
needs. Going forward, the U.S. Government's ability to respond more 
effectively will be significantly handicapped without the presence of 
Americans who have deep knowledge and history of such operations in 
South Sudan. Understanding the risks involved, U.S. Government (USG) 
humanitarian staff should be allowed (and American implementing 
partners should be encouraged) to return to South Sudan as quickly as 
possible to better support these efforts.
4. Accept a U.N. Commission of Inquiry to document human rights abuses
    The efforts of UNMISS and the U.N. High Commissioner for Human 
Rights should be augmented by the establishment of a formal U.N. 
Commission of Inquiry to investigate and document allegations of 
atrocities and human rights abuses. The United States and the 
international community should demand full access and cooperation with 
members of the commission and other international human rights monitors 
as a signal to the people of South Sudan of commitment to stopping 
atrocities and holding perpetrators of crimes against civilians 
accountable.
    To reinforce these four priorities, the administration should 
prepare to invoke the President's authorities in the International 
Economic Powers Act and National Emergencies Act to institute travel 
bans and asset freezes on senior leadership on both sides. In addition, 
the United States should prepare to table a resolution at the U.N. 
Security Council establishing a sanctions regime that would further 
demonstrate the seriousness of its commitment to holding the 
protagonists accountable. They must clearly understand that the only 
way to forestall such measures would be an immediate release of the 11 
political detainees to the ICRC and simultaneous enactment of a cease-
fire to be monitored by UNMISS. Ongoing cooperation with humanitarian 
response efforts and human rights monitoring should also be made 
requisite for remaining ``off the list.''
     stabilization priorities after an interim political settlement
    While empirical evidence tells us that escaping cycles of violence 
is hard--one of the greatest predictors of future violence is a history 
of past violence--it can be done. The World Bank's 2011 World 
Development Report captures the experiences of countries that have 
successfully exited from cycles of violence and provides a framework 
for prioritizing state-building and reconstruction efforts in South 
Sudan--if and when the immediate fighting ends and an interim political 
settlement is reached. It finds:

        To break cycles of insecurity and reduce the risk of their 
        recurrence, national reformers and their international partners 
        need to build the legitimate institutions that can provide a 
        sustained level of citizen security, justice, and jobs--
        offering a stake in society to groups that may otherwise 
        receive more respect and recognition from engaging in armed 
        violence than in lawful activities, and punishing infractions 
        capably and fairly. (8)

    Such institutional transformation, however, takes time--a best-case 
scenario is within a generation--and requires first a restoration of 
confidence and trust in government and across communities. For South 
Sudan, therefore, it will be imperative to address the underlying 
issues of political accountability of the executive branch and ruling 
political party that precipitated the outbreak of fighting and to 
repair the damage to state-society relations and intercommunal social 
cohesion that the fighting has caused.
    For this to happen, the current political leadership faces a 
critical choice: to use the crisis to recommit itself to developing 
inclusive, accountable institutions by ceasing actions that perpetuate 
the dominance of the executive branch and the current executive, or to 
continue to alienate society from the state through the pursuit of what 
appears increasingly to be cults of indispensability. Neither Salva 
Kiir nor Riek Machar is indispensable to a stable, peaceful, democratic 
South Sudan, but either one can doom it to decades more death and 
destruction. Courageous leadership is required to rise above personal 
ambitions and animosities to embrace accountability mechanisms\1\ and 
transparent political processes that can generate renewed confidence in 
the state.
    Political leadership that is serious about restoring confidence in 
the state and ending cycles of violence would dedicate itself to three 
critical tasks: building inclusive-enough coalitions to support key 
institutional reforms, expanding space for independent voices so as to 
enable a national dialogue, and realizing tangible successes to 
demonstrate the state's responsiveness to citizen expectations, 
particularly with respect to drafting a permanent constitution, 
fostering national and local reconciliation, and conducting fair and 
peaceful elections. I have written more extensively about what these 
tasks would entail in ``Fragility and State-Society Relations in South 
Sudan,'' a research paper available from the Africa Center for 
Strategic Studies.\2\ A summary of the key points follows.
Inclusive-Enough Coalitions
    The state needs to make a more concerted and genuine effort to 
build collaborative partnerships beyond the class of elites who have 
dominated South Sudan's political arena thus far. The partnership-
building process must also transcend societal fault lines and engage 
youth. By partnering with trusted institutions in society such as 
churches and nongovernmental and civil society organizations, 
identifying mutually beneficial priorities and complementary strengths, 
such a strategy would improve the government's engagements with local 
communities. Greater engagement with societal actors by the government 
would simultaneously diminish the justification for violence by 
communities that feel they have been excluded from the political 
process. Whether it involves matters of security, political processes, 
development needs, or other issues, the practice of building inclusive 
coalitions would make initiatives and reforms more viable, sustainable, 
and effective while fostering trust for future state-building efforts.
Expanding Space for Independent Voices
    Access to independent information is indispensable to establishing 
accountability mechanisms on which a stable, democratic, developmental 
state depends. Beyond actively cultivating coalitions and inclusivity, 
the state must protect space for citizens and communities to express 
themselves if the processes of a state-society dialogue are to gain 
traction. Drawing on the experience of other democratic transitions, a 
massive civic education and public outreach campaign is required to 
sensitize the population to key democratic values and principles, such 
as:

  <bullet> The responsibility of all citizens to participate in 
        political and policy debates so that citizen preferences can be 
        heard;
  <bullet> Tolerance for opposing points of view;
  <bullet> Freedom of speech, media, and assembly;
  <bullet> Equality before the law;
  <bullet> The inalienability of rights for minority groups and 
        parties;
  <bullet> Protection of private property rights.

    In addition to state actors, this effort should enlist the 
participation of religious leaders, traditional authorities, civil 
society, the media, opposition political parties, and international 
partners. These groups have the trust of various constituencies in 
society and, collectively, can reach the largest percentage of citizens 
possible.
    Rather than trying to monopolize state-society relations, the RSS 
and the SPLM should recognize independent civil society actors as 
representing authentic perspectives of citizens that can contribute to 
a stronger and more stable South Sudan. Harassing, intimidating, or 
otherwise inhibiting these voices sends exactly the opposite message--
that the state does not want a genuine discussion with its citizens and 
intends to continue to dominate access to power and wealth. The outcome 
of such an approach is perpetual resistance and instability.
    Media bills to protect freedom of speech should be passed and 
signed into law. Security services should be prohibited from 
persecuting the media, civil society, and international human rights 
monitors. Credible, independent investigations into all cases of 
intimidation and violence against journalists, human rights activists, 
and civil society leaders should be conducted and the results made 
public. The perpetrators should be tried publicly under due process of 
law. These are all immediate, consequential, and concrete signals that 
the government could send of its serious intent to become a government 
responsive to its citizens.
    Since the challenge of building a national consciousness is as much 
a cultural exercise as it is a political one, efforts to foster a new 
South Sudanese identity should complement reforms to protect and expand 
political and civil rights. South Sudan's heterogeneity provides deep 
reservoirs of culture that, if appreciated and respected for their 
diversity, can foster a new national identity.
Tangible Gains Responding to Citizen Priorities
    Achieving modest improvements on key popular priorities is a 
tangible demonstration that the government has the interests of 
citizens at heart. Beyond the outcomes generated is the process 
adopted, for this signals how committed a government is to citizen 
participation and input--and ultimately accountability. Four strategic 
priorities integral to the state-building process provide focal points 
for generating confidence in the state so that vital institutional 
reforms in security, justice, and jobs can proceed.
    1. National Constitutional Review. The current transitional 
constitution gives extraordinary powers to the President with almost no 
checks afforded to other branches of government. The President cannot 
be impeached. He can dismiss the national and state assemblies and 
remove the Vice President and State Governors from office, as well as 
any justice or judge. A national constitutional review process was to 
have been completed by January 2013, leading to a final, permanent 
constitution soon thereafter. The review process is considerably behind 
schedule, so much so that the transitional constitution had to be 
amended to extend the National Constitutional Review Commission (NCRC) 
mandate for an additional 2 years to December 2014. Even before the 
outbreak of fighting, this raised serious questions about the adoption 
of a new permanent constitution before the current terms of the 
President and national assembly expire in July 2015.
    The national constitutional review process is an opportunity to 
educate citizens about what a constitution is and solicit views about 
what kind of checks and balances the people of South Sudan want on 
their government. Instead, the path provided for in the transitional 
constitution--a permanent constitution drafted by the NCRC, reviewed by 
an appointed National Constitutional Conference, and then passed by the 
National Legislative Assembly for adoption--seems set to replicate the 
ruling party's vision for how it should govern the country. It also 
leaves the product forever open to serious challenges to its 
legitimacy.
    In light of the current crisis, the timeline for adopting a new 
permanent constitution and conducting national elections will need to 
be revised further. This affords the opportunity to make this process 
more inclusive, participatory, and transparent. In addition to 
institutionalizing more consultative engagement with civil society and 
communities, the draft constitution should be put to a popular 
referendum to demonstrate societal commitment to this political course 
while significantly boosting the legitimacy of the new state. An open 
and legitimate constitutional review process represents the most 
significant opportunity to lay an enduring foundation for national 
unity. A closed and exclusive process, however, will result in extended 
political grievances and perceptions of injustice. It will also 
seriously call into question the state leadership's commitment to 
democracy.
    The independence referendum of 2011 was perhaps the most unifying 
and participatory experience in South Sudan--a compelling demonstration 
of the capacity and will of the people of South Sudan for political 
participation. They should be afforded the opportunity to recapture and 
reinvigorate this citizen participation in governance through a 
constitutional referendum.
    2. National Reconciliation. Although not mandated in the CPA or the 
transitional constitution, the RSS announced in early 2013 an 
initiative for a national reconciliation process in recognition of the 
country's long history of intercommunal fighting and grievances. The 
further deterioration of intercommunal relations and new grievances 
spawned by the current outbreak of fighting renders this initiative of 
utmost importance.
    Delayed by early disagreements over the reconciliation committee's 
mandate and membership, a new Committee for National Healing, Peace and 
Reconciliation led by church leaders was established in April 2013. 
Archbishop Daniel Deng of the Episcopal Church of South Sudan chairs 
the process supported by Archbishop Emeritus Paride Taban of the 
Catholic Church. As representatives of the most trusted institutions in 
South Sudanese society, church leaders now have a significant 
opportunity to lead the country in a process of national healing. 
Church leaders should be asked to witness the current negotiations as 
representatives of civil society and they should insist on the 
inclusion of an integrated process of truth-telling, justice, and 
reconciliation in any negotiated agreement.\3\
    An integrated process of national reconciliation, truth-telling, 
and justice holds the potential to help drive progress toward citizen 
security and justice, two critical sectors highlighted by the 2011 
World Development Report. The stakes are high, however, since a poorly 
managed process will provide further justification for violence to 
``address'' grievances, while delegitimizing future initiatives to 
address intercommunal differences. Extensive public consultation and 
communication on why a process is necessary, how it should proceed, and 
what role state and nonstate actors will play will be critical to the 
success of the initiative. It is imperative that the process be 
apolitical and managed by independent and trusted nongovernmental 
institutions given the roles of many of the senior RSS leaders not just 
in the current crisis but in the long history of south-south violence. 
Ensuring every community has an opportunity to air its grievances will 
be vital to the credibility of the process. The difficult question of 
whether and what forms of justice will be administered in response to 
the findings of the reconciliation dialogue comprises another 
significant challenge for the committee, political leadership, and 
society at large.
    Beyond the formal process for national reconciliation, promoting a 
culture of tolerance among youth and community leaders should be 
priorities. Numerous grassroots and civil society initiatives have 
attempted to do this during and since the war. However, some have 
neglected to include youth actors most central to perpetuating specific 
conflict dynamics, such as with the Murle and Lou Nuer youth in Jonglei 
state. Unless and until initiatives include stakeholders connected to 
these actors and familiar with their motives and interests, success in 
reversing the increasing reliance on violence is unlikely.
    3. National Elections. An equitable and transparent electoral 
process represents an inimitable opportunity to rebuild confidence and 
foster citizen participation and the legitimization of a governance 
agenda and will be critical to preventing further instability and 
violence in South Sudan. The next round of national, state, and local 
elections should follow a healing period during which agreement on the 
rules of the game is decided through the constitutional review process 
and political party reform.
    Specifically, how national elections and internal SPLM candidacy 
issues are handled going forward will determine whether these contests 
will continue to be seen as winner-take-all competitions that heighten 
the likelihood of violence. As is currently being demonstrated, how 
candidates for office are selected and whether the losers in the SPLM 
chairmanship contest and the Presidential election accept the results 
peacefully will impact profoundly on the state's quest for legitimacy 
and viability. A key consideration in the lead up to elections for both 
the SPLM and the RSS will be to guarantee protections and space for the 
losers in the political process after the elections. A related 
consideration will be to ensure space for other political parties to 
develop and compete in electoral contests.
    Elections should not proceed without first restoring some 
confidence in the country's political processes, namely through a 
credible and participatory process to draft and adopt a new permanent 
constitution, through the adoption of internal SPLM party reforms to 
restore democratic procedures and transparent vetting and selection of 
candidates for office, and through the provision of space for other 
political parties to organize and develop their capacities. Progress on 
national reconciliation and healing should also precede elections.
    4. Connecting the Country through Roads and Radio. These critical 
processes----national constitutional review, national reconciliation, 
and preparations for national, state, and local elections--and all 
other efforts to repair state-society relations all require the free 
and regular flow of information to citizens in even the most remote 
parts of the country. South Sudan's sheer lack of physical 
infrastructure to enable the movement of people, goods, and services 
across the vast country, including during rainy seasons, will continue 
to be a severe obstacle to every political, security, economic, and 
development objective.\4\ Upon the start of the CPA interim period in 
July 2005, SPLM founder Dr. John Garang told Deputy Secretary of State 
Robert Zoellick that his priorities were ``roads, roads, and roads.'' 
While some effort has been made to build the country's communications 
and transportation networks since 2005, roads and radio coverage must 
be extended to every region of South Sudan as quickly as possible. So 
long as communities remain cut off from each other and from the 
government--physically and through the exchange of information--
insecurity and political exclusion will persist.
    As the current crisis so vividly illustrates, the foundation of the 
state cannot be an afterthought. Generating renewed confidence in 
state-society relations through these critical tasks and forthcoming 
opportunities will provide the social capital needed to build the 
institutions most central to preventing a recurrence of the current 
crisis: citizen security, justice, and jobs.
                          the role for donors
    The United States is the largest bilateral donor to South Sudan, 
and it should remain so. At independence in 2011, the United States 
pledged to continue to stand by the people of South Sudan. The United 
States should remain resolute in this commitment and not balk in the 
face of recent developments, however severe they may be. Diplomatic 
actions should focus on influencing the choices of the political 
leadership, including, if necessary, targeted sanctions on travel and 
asset freezes and other punitive actions in the face of ongoing 
recalcitrance to end the fighting and reach an interim political 
settlement.
    While the size of the United States development program affords 
significant leverage with the government and leadership, it should be 
used in coordination with other donors to incentivize a return to 
nonviolent political processes and renewed commitment to meeting the 
needs of its citizens. Short of the current government being unseated 
militarily, the United States should not cut off development assistance 
to South Sudan--doing so will only further harm the people of South 
Sudan. Needless to say, Dr. Machar should be under no illusions of 
international donor support or legitimacy if he persists in his pursuit 
of power militarily.
    USAID and other donor partners should nevertheless reexamine their 
aid programs and delivery modalities in light of the unfolding 
situation; so long as fighting ensues and the need persists, priority 
must be given to expediting life-saving humanitarian aid. At the same 
time, however, development activities in parts of the country that 
remain peaceful should continue--an abrupt stop to the delivery of 
services and an interruption in political processes that these 
activities support will only worsen the national crisis, not alleviate 
it. Greater use of local systems for delivery of services should be 
explored in stable areas. A key objective should be to prevent a total 
return to a parallel system of delivering basic services, such as 
health, through international humanitarian agencies.
    In preparation for an end to the fighting and an interim political 
settlement, USAID and other donors should reexamine their development 
programs and strategies against the framework for ending violence and 
promoting state-building provided in the 2011 World Development Report. 
There cannot be a return to the same development plans that preceded 
the crisis. Specifically, donors should seek to support South Sudanese-
led efforts to restore state-society relations through the critical 
tasks identified in the previous section. Giving priority to supporting 
these confidence-building measures, particularly the political 
processes needed to restore trust and accountability and the physical 
infrastructure needed to connect the country, is of utmost importance. 
This should entail thoughtful support to civil society and other 
nonstate sources of accountability and legitimacy, though with caution 
not to overwhelm them nor draw the further ire of the state to clamp 
down on them.
    Focusing state-building and development efforts on the institutions 
of security, justice, and economic livelihoods is the next order of 
priorities. Each of these sectors will require serious reexamination to 
recalibrate assistance to account for the further challenges wrought by 
the present crisis. Supporting efforts to build a professional, 
integrated national army, for instance, and to provide judicial 
recourse for violent crimes at grassroots as well as national levels, 
will be particularly important. So, too, will extending the economic 
benefits of South Sudan's huge natural resource base to the entire 
population, not just an elite few. A related challenge will be tying 
the government's revenue base to its citizenry through taxation rather 
than oil rents or donor assistance.
    Throughout, it will be important to recognize that aid cannot 
substitute for nor drive the political processes or institutional 
reforms needed to end violence and bring democracy and development to 
South Sudan. It can support them technically, but they are not for 
external actors to design, negotiate, or implement. The issues are 
political, not technical ones of expertise, capacity, or resources, 
which are secondary challenges. So long as basic human rights are being 
respected, South Sudanese must be allowed to identify their problems 
and try out solutions that work best in the South Sudanese context. At 
the same time, neither should donor support be a blank check. It is 
reasonable to expect to see evidence of commitment to principles of 
accountability and efforts to enshrine institutional legitimacy, not 
cults of indispensability.
    USAID missions are predicated on cooperative development 
partnerships with host governments as legitimate representatives of 
their people. The recent actions of the political leadership in South 
Sudan on both sides of the conflict in precipitating and perpetuating 
the use of violence raise grave doubts as to the legitimacy of the 
political elite in representing the people of South Sudan. Unless clear 
actions are taken to uphold principles of accountable, transparent, 
inclusive, and responsive governance, then even more fundamental 
changes to the structure and objectives of the aid program to support 
restoration of these principles will be needed. In this scenario, 
development assistance should be focused entirely on supporting 
subnational government, civil society, and the political processes that 
could restore accountable and responsive governance at the national 
level. Ultimately aid is a commitment to the people of South Sudan, not 
the current regime.
    On a practical note, an effective aid program requires nuanced 
contextual knowledge that can only come from presence and 
relationships. This is rendered even more difficult with the drawdown 
of USG and implementing partner staff. Even when security permits a 
return to Juba, USAID and the State Department will both continue to be 
handicapped with constant staff rotations due to short, 1-year tour 
cycles. If these security constraints cannot be overcome and tour 
lengths extended, then expectations for what the USG can accomplish 
diplomatically or through its economic assistance must be significantly 
moderated.
                               conclusion
    Most immediately, the fighting must end, political detainees must 
be released, humanitarian aid must reach all needy populations, and 
human rights abuses must be accounted for. The United States and the 
international community should deploy all diplomatic measures available 
to them to impress these priorities upon President Kiir and Dr. Machar, 
both of whom are culpable for the devastation and suffering wrought by 
the past 3 weeks of fighting.
    Going forward, South Sudan's leadership can set a new course toward 
legitimacy, stability, and sustained development if it prioritizes 
above all else building trust, accountability, and social cohesion with 
and across the South Sudanese citizenry. There is no more essential 
state-building task than this.

----------------
End Notes

    \1\ State-based accountability mechanisms include: constitutions, 
elections, legislatures, courts, political parties, subnational 
government, a merit-based civil service, and a professional security 
sector, among others. Society-based accountability mechanisms include: 
independent media and access to information, civil society, social 
capital, and external norms and standards. The development of any 
particular mechanism is less important than the density, or layering, 
of accountability mechanisms across the state and society.
    \2\ http://africacenter.org/2013/09/fragility-and-state-society-
relations-in-south-sudan/.
    \3\ See http://africanarguments.org/2014/01/08/an-integrated-
response-to-justice-and-reconciliation-in-south-sudan-by-david-deng-
and-elizabeth-deng/.
    \4\ In a territory approximately the size of Afghanistan, there is 
only one paved highway running roughly 120 miles from Juba to the 
Ugandan border, constructed by USAID. Huge swathes of the country 
remain inaccessible by road during rainy seasons, including many of the 
most conflict-prone regions of the country.

    The Chairman. Well, thank you all for your testimony. Some 
very important insights.
    Let me ask you, Ambassador Lyman. You referred to Machar 
and other SPLM leaders and their grievances. Was there popular 
support for those views, the views that they were espousing, 
among South Sudanese?
    Ambassador Lyman. I doubt it. Those were kind of inside, 
what we would call here inside-the-Beltway kind of arguments, 
over authorities and power, et cetera. One area that was 
getting quite a bit of popular attention was the harassment of 
human rights workers, of journalists, et cetera. That was 
raising a great deal of concern inside South Sudan.
    The challenge from Riek Machar did, of course, reverberate 
through because of the history. I think people recognized that 
that challenge was going to be a major one to be managed by the 
government, as became more evident.
    The Chairman. Now, the composition of the government 
delegation is interesting to me, particularly since Nhial Deng 
Nhial was once part of a faction that opposed John Garang and 
Salva Kiir's vision for South Sudan. What might the composition 
of the delegation mean in terms of the larger regional 
dynamics?
    Ambassador Lyman. You know, you have really three parties 
here. You have President Kiir's supporters, you have Riek 
Machar's supporters, and you have this group of detainees who 
are not either. That is, they are looking for a broader party 
role, a broader use of the party mechanisms and authorities.
    To make them part of the negotiations in Addis means you 
have to enlarge those negotiations to allow for views other 
than just the two contending parties. But you need to do that 
to give them a role, because there are two things that have to 
happen. After a cease-fire, you have to have an understanding 
as to what the government's going to look like for the next 2 
years. That means that those people, now detained, and 
President Kiir and people from Machar's side have to agree on 
the structure of a government over the next 2 years.
    Meanwhile, you have this, what I think a broad 
constitutional process that delves into the longer term issues 
of democracy, human rights, and governance. So this is a 
complicated negotiation that has to take place, and it needs to 
involve people who represent the several different points of 
view, both from the ruling party and outside.
    The Chairman. That observation brings me to Mr. 
Prendergast. After the Security Council's approval of 
additional peacekeeping troops for South Sudan last month, you 
commented that the political and diplomatic elements of 
international responses to most African conflicts have been 
slow and ineffective, which has put more pressure on 
peacekeeping missions than they have the wherewithal to fulfill 
the objectives, for which they are totally unprepared.
    Can you talk about this? I think you have somewhat, but I 
would like you to go into greater depth on the context of the 
current situation in South Sudan and why it is important for 
the deployment of peacekeeping missions to be accompanied by 
very rigorous diplomatic engagement from members of the 
international community, particularly the United States.
    Mr. Prendergast. Thank you, Senator. You look at the three 
biggest missions today on the African Continent--South Sudan, 
Darfur, and eastern Congo--the American taxpayer is on the hook 
for almost 30 percent of well over $3 billion a year in 
supporting peacekeeping missions there. But in all three of 
those cases, you could argue that the commensurate, the 
corresponding political investment, was not equal to the 
investment in the deployment of military force.
    In South Sudan, everyone has discussed that there was 
probably not enough international efforts undertaken to try to 
prevent the conflagration between--and I agree totally with my 
two fellow panelists--this political dispute, which goes back 
of course decades, between the two factions that are now 
battling. The lack of an international engagement, a deep 
engagement, a transparent engagement to try to prevent 
conflict, I think is something we need to look at.
    In Congo we did not have much of a political process for 
years, until finally the United Nations appointed Mary Robinson 
and the United States appointed Senator Feingold, one of the 
former members of this committee, and now we are starting to 
see the construction, A, of a credible, serious peace process 
and, B, the deployment of real force that helps change the game 
on the ground in eastern Congo.
    In Darfur we have this endless peacekeeping mission, and 
where we have made absolutely no progress in dealing with the 
political roots, the political drivers of violence throughout 
Sudan.
    So I think that is where we really are missing. We have 
invested quite a great deal. It is sort of the old military 
adage: If all you have got is a hammer, everything looks like a 
nail. We just keep throwing these peacekeeping forces into 
these situations without investing in preventive diplomacy.
    Now, Princeton was the special envoy for the United States 
and when he was in office until March 2013 he was actively 
engaging with the parties in South Sudan in helping to prevent 
a deterioration. But there was a long gap between his, the end 
of his term, and the beginning of the next one, and there is 
not another country that is really engaged like we are in that 
kind of preventive diplomacy. It gets no headlines. Nobody 
cares that people are out there doing that stuff and you do not 
get any credit if you actually prevent something. But that is 
what we need to be investing in and that is what really did not 
happen in South Sudan and it is not happening in Sudan, because 
we just have not invested the resources in helping to build 
that real serious political process and putting the emphasis, 
the public international emphasis, on building a peace process 
that will allow for the resolution of these horrible, deadly 
conflicts.
    The Chairman. I smiled when you said you do not get any 
credit for preventing things. That is so true, but yet it is 
probably the most successful element of anything that we do, is 
preventing.
    The final question, Ms. Knopf. You made an interesting 
observation there toward the end that for us to be successful 
in South Sudan you have to have parties that have a history, 
have an understanding, have an engagement. So I would assume, 
based upon that comment--maybe I am wrong--that, maybe, we do 
not have all the parties that would bring us to the successful 
conclusion.
    Are there some missing parties or types of resources we 
should be bringing that are not there right now?
    Ms. Knopf. The critical issue at the moment is the drawdown 
of the U.S. Embassy and USAID staff. Without having diplomats 
on the ground resident there, talking to parties across all 
sides of this crisis, and getting out beyond Juba and the 
capital as well, that becomes very, very difficult just to do 
shuttle diplomacy in Addis or by remote control, to deliver our 
messages and to understand what is really happening there.
    Secondly, for aid programs to be effective we also need 
both development experts and the humanitarian professionals, 
most especially at this moment in time, to be as close to the 
situations that they are trying to ameliorate as possible, and 
to be in constant contact with local partners, with the South 
Sudanese who are at risk here and in need of the assistance, 
and then daily and hourly coordination with the other elements 
of the international humanitarian response.
    Doing this offshore, from Nairobi at the moment, where the 
disaster assistance response team is based, it takes us back 
to, I do not even know, before 2002, 2001, in terms of how we 
used to manage humanitarian response in southern Sudan. It is 
woefully inadequate and it will impact our ability to be 
effective in the long run.
    We have deep, deep expertise, as Assistant Administrator 
Lindborg said, in the U.S. Government and in the international 
community, and with Americans and implementing partners, such 
as NGOs and other international organizations, they need to be 
there in order to respond.
    The Chairman. Senator Flake.
    Senator Flake. Sorry I missed the testimony. I am told that 
you talked a little about this being a division of ethnicity as 
well, of course. That is often the case. What is the percentage 
of the President's--well, the Dinka tribe constitutes what 
percentage of the country?
    Ambassador Lyman. I do not have that figure right in mind, 
but it is the largest group, although there are a lot of 
subgroups of the Dinka.
    Senator Flake. Right.
    Ambassador Lyman. And that too is a factor. The Nuer are 
the second-largest group and that is the group that largely 
supported, is supporting, Riek Machar. The Shilluk are the 
third. But I do not have the percentages, I am sorry, but I can 
get them for you.
    Mr. Prendergast. We were just consulting; 30, 35 percent is 
Dinka, and then the rest is, there are 65 tribes or ethnic 
groups in South Sudan.
    Senator Flake. Sixty-five.
    I was there and questioned the other panel, but some of the 
questions there--the U.N. peacekeeping forces that are there 
now and others, how effective are they at preventing bloodshed, 
or what can we do to help that group? Is it just a matter of 
numbers or mission or what can we do at this point?
    Ambassador Lyman. Well, let me comment on that and my 
colleagues comment. But it is both of the things you have 
mentioned. First of all, they do not have enough troops there, 
and the action by the Security Council was important, but it is 
very hard to get countries to contribute and find air support 
and equipment. That just has to take a lot of intensive effort 
by us and others to make sure they get there.
    But second, it has to be made very clear that they are 
going to be aggressively protecting civilians, which means that 
those compounds will not be allowed to be breached and they are 
prepared to defend them with weapons if that takes place. They 
have to be aggressively patrolling.
    Now, they have not played that role up until now. They have 
not seen that as their mission. But I think that has to become 
part of it, and they have to look ahead to how they will 
monitor a cease-fire and how they will be out there 
aggressively doing so and reporting violations to the Security 
Council.
    So these are things they have not been doing. It was not in 
their original thought. They were largely a state-building 
operation when they went to South Sudan, helping create 
capacity, et cetera. Now they have got a new, desperately 
important protection role and they need more people and they 
need a very aggressive mandate.
    Senator Flake. Any differences there or comments?
    Mr. Prendergast. I totally agree. The 30-second footnote 
is--and again, it is a wider phenomenon. We send peacekeeping 
forces, missions, to do a laundry list of things and then when 
the stuff hits the fan we want them to protect civilians. If 
they are not prepared to do that, you have to organize, as you 
know, and deploy, provision, and have the expertise to 
undertake a civilian protection mission. These guys were not 
ready for that, so now they have to get up to speed, and that 
is going to take a while.
    Senator Flake. Yes?
    Ms. Knopf. I guess my two cents on this would be: UNMISS 
has a chapter 7 mandate. They have what they need to be able to 
go out and do these things, to defend and to patrol and to 
monitor cease-fires. But the world turned upside down in just 
under 4 weeks in South Sudan. This is not what they were 
initially there to do. While the potential for conflict of 
course has been there and is not a surprise, the fact that it 
has fallen apart just so quickly and so dramatically, it takes 
a moment, I think, for everybody to adjust and to understand 
and retool for the new challenges and the new realities.
    So I do not think UNMISS--there is lots that one can say 
about UNMISS's performance heretofore, but they were there to 
do a state-building mission. Now they have to do a very 
different mission and that does take some shifting.
    Senator Flake. So they have got the mandate; it is a 
numbers issue for the most part.
    Ambassador Lyman. The irony is that South Sudan opposed the 
chapter 7 mandate when UNMISS was created. They said: We do not 
have any internal security problems. Fortunately, the Security 
Council saw otherwise.
    Senator Flake. Thank you.
    With regard to U.S. assistance, whether state-building or 
humanitarian, does that represent leverage that is effective at 
all? Ambassador Thomas-Greenfield seemed to think not. With the 
restrictions that we have here in Congress in terms of aid and 
assistance after a coup, does that represent leverage that we 
can use? Is it effective at all, or just on the margins or not 
at all?
    Ambassador Lyman. I think it was a very important statement 
by the United States that we would not recognize a military 
takeover. President Kiir, for all his faults, is the 
democratically elected President, and you have to build on 
that. And just saying anybody can come in and take over is 
going to undermine a lot of things.
    So I think it was important. Whether the aid levels matter 
to people like Riek Machar, it is hard to say. I think 
Assistant Secretary Greenfield suggested that probably in 
itself is not. But international recognition is important 
support. So I think making that statement is important.
    But then the burden falls on President Kiir to play his 
role much more effectively. Here is another irony. President 
Kiir was proud of the fact and admired for the fact that he was 
the one that created the unity of all these different groups in 
the runup to independence. He brought in all these factions, et 
cetera. He created a broad-based government. He invited Riek 
Machar to be Vice President. It was one of his accomplishments. 
It was one of the reasons he was so supported.
    Unfortunately, he has moved in a different direction. He 
sees all his critics as enemies. He is relying on intelligence 
people and harassers, et cetera. It is unfortunate because his 
original contribution is being lost.
    Senator Flake. Thank you.
    Ms. Knopf. If I can just add, my personal knowledge of the 
two main parties here is the threat to cut off our assistance, 
our development assistance, is not what is going to motivate 
them to come to the table and get the cease-fire done and 
arrive at an interim political settlement. It will hurt the 
people of South Sudan.
    I made the point that we have been providing development 
assistance continuously since 1998. We know how to do it in the 
midst of conflict. We know how--we have many modalities for how 
to provide assistance, either with the cooperation of the 
government or working through other avenues, local and 
international partners and subnational levels of government. 
There are stable areas of the country. We should not stop 
development assistance in the stable areas of the country. It 
is very important to help keep the conflict from spreading and 
to not lose the gains that we have already made in that regard.
    As well, U.S. assistance has been vital underpinning the 
economy with the Central Bank of South Sudan and a number of 
other key financial institutions. Picking up the pieces 
economically when this is all done will be much, much harder if 
we pull that support out now. So I do think that it is 
important and imperative that development assistance continue, 
that the modalities be examined, that the strategies be updated 
as the situation changes, but that we keep the commitment to 
the people of South Sudan and not harm them further.
    Senator Flake. Thanks.
    Mr. Prendergast. One last point. Building leverage is 
critical. That is what we have got to be looking for all the 
time. The aid does not--I think I agree, the aid does not make 
a big difference to these guys. But it does make a big 
difference to the people of South Sudan and to the building of 
institutions in the long run. Pulling that away now would 
really undermine the long-term stability of the place.
    Our leverage I think should focus on individual 
culpability--the targeted sanctions, prosecution of people who 
are found to have committed, committing or planning atrocities 
and patterns of atrocities. The additional leverage comes if we 
work much more closely and transparently and publicly with 
China in figuring out ways to collectively pressure, working 
with the region and with other countries that have any kind of 
influence, collectively pressure the parties when there are 
key-point moments in the negotiations that there needs to be a 
push.
    Again, I just view a very high-level White House to State 
House in Beijing engagement on South Sudan and, of course, on 
Sudan to be a critical thing to do right now in order to show 
that united front internationally to the parties, that we are 
really going to be pushing for peace and those that undermine 
peace are going to have some kind of particular sanction.
    Senator Flake. Is it your assessment that China is willing 
to step up to the plate in that regard?
    Mr. Prendergast. Not as publicly as us. But I think 
definitely their interests are actually much deeper in terms of 
national security than ours are, and so let us figure out--and 
I think that the good news is that our interests in terms of 
what the end game is line up very clearly with China. So let us 
take advantage of that moment--it does not happen often 
globally--and figure out how we can more deeply work with them.
    Senator Flake. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    One last question on that issue that Mr. Prendergast 
mentioned about looking for leverage and targeted sanctions of 
those who commit human rights violations. Since you have been 
intimately involved until very recently in these efforts and 
negotiations, what do you view--do you view that as a good, 
among others, a good leverage point?
    Ambassador Lyman. I think it is going to be extremely 
important in another way. I think personally that in a process 
over the next 2 years of writing a new constitution and laying 
a new foundation, that that creates the basis for eliminating 
from future power a lot of people who are responsible. So 
whether it is in the process of prosecution or some other kind 
of commission, a lot of people who are very guilty of the kind 
of terrible violations should not be part of a new government 
after 2015. I think that is one of the outcomes that we should 
see.
    The Chairman. Well, with the thanks of the committee for 
your invaluable testimony, I expect that the Africa 
Subcommittee as well as the full committee will lend continuing 
attention to the challenges in South Sudan. Leaders on all 
sides need to recognize that reality versus not a singular 
hearing at a singular moment. The attention of the committee 
will be focused on them continuously.
    The record will be open until the close of business 
tomorrow. With the thanks of the committee, this hearing is 
adjourned.
    [Whereupon, at 12:30 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


 Prepared Statement of Hon. Barbara Boxer, U.S. Senator From California

    Mr. Chairman and Senator Corker--thank you for holding this 
important hearing.
    Like my colleagues, I am deeply concerned about the violence that 
has spread across South Sudan over the last few weeks and what it means 
for the future of the world's newest country.
    Three years ago, the people of South Sudan voted overwhelmingly to 
secede from Sudan and become an independent nation. This historic vote 
ended decades of civil war and brought hope for a bright and peaceful 
future for South Sudan.
    Tragically, violence in South Sudan now threatens to tear apart 
this new nation. Over the past month, at least 1,000 people have died 
and more than 200,000 have been forced to flee their homes.
    The humanitarian situation grows more serious with each passing 
day.
    I am especially concerned about the disproportionate impact of this 
conflict on the women and children of South Sudan.
    According to the United Nations Children's Fund (UNICEF), the 
majority of those who have been displaced are women and children. 
UNICEF also estimates that hundreds of children have been separated 
from their families and are surviving on their own. These children are 
particularly vulnerable to malnutrition and disease.
    Women and girls are also at risk of sexual and gender-based 
violence in the camps for refugees and displaced persons. According to 
Wendy Taeuber, the head of the International Rescue Committee (IRC) in 
South Sudan, ``There's no safe space for women in the camps.''
    The United States and the international community must continue 
efforts to support women and children who have been affected by the 
ongoing violence--particularly those who have been victims of gender-
based violence.
    We must also support those in South Sudan who have demanded that 
women play a significant and meaningful role in the peace process.
    The United States National Action Plan on Women, Peace, and 
Security states that, ``Evidence from around the world and across 
cultures shows that integrating women and gender considerations into 
peace-building processes helps promote democratic governance and long-
term stability.'' I could not agree more.
    Three years ago, the people of South Sudan voted to start a new 
chapter in their history--a chapter of peace, not violence. I want to 
echo comments made by Assistant Secretary of State for African Affairs 
Linda Thomas-Greenfield in her written testimony, ``Stopping the 
violence, and ensuring that Africa's newest nation continues to move 
forward rather than backward, is of highest priority to the United 
States and the international community.''
    Thank you.
                                 ______
                                 

 Responses of Assistant Secretary Linda Thomas-Greenfield to Questions 
                    Submitted by Senator Bob Corker

    Question. In the past, peace talks and arrangements focused mostly 
on Southern Sudanese self-determination and North-South violence and 
did not effectively address some of the most important questions about 
governance inside South Sudan. Many observers warn that again failing 
to address critical governance questions would simply paper over the 
cracks and invite future conflict.

  <diamond> Will the peace talks in Addis Ababa (or successor talks) 
        address changes to governance structures?
  <diamond> What institutional shortcomings and governance failures 
        must be addressed for the long-term viability of South Sudan?
  <diamond> Can these shortcoming and failures be addressed with the 
        current South Sudanese leadership?
  <diamond> What outside parties would be essential to making such 
        long-term agreement viable, and what kind of assurances or 
        guarantees would be required?

    Answer. Our position from a very early point in the crisis has been 
that this is a political crisis requiring a political solution. The 
U.S. Special Envoy has been in the region since mid-December working 
with the parties and with our regional partners. Political aspects of 
the crisis have been a key focus of his engagement, including working 
tirelessly to facilitate the release and participation of the political 
detainees. Participation of the political detainees provides for an 
opportunity to start a more inclusive dialogue, which should also 
include a dynamic and comprehensive reconciliation process as well.
    The current crisis has laid bare more than just a struggle within 
the ruling party: it has exposed a centralization of power, weak 
institutions and the exclusion of much of the population from access to 
democratic governance and the peace dividends envisioned in the 
Comprehensive Peace Agreement (CPA). These shortcomings were not a new 
revelation, but they have taken on a new urgency. Addressing these 
issues will require an inclusive process that goes beyond existing 
systems for constitutional review and national reconciliation. We will 
continue to work closely with the Intergovernmental Authority on 
Development (IGAD) and other partners to encourage a national dialogue 
process that includes a broad spectrum of South Sudanese society 
including opposition parties, civil society, women and youth that goes 
beyond accommodating the fissures among the elite, and seeks to address 
these deeper issues.
    In the immediate term, protection of civilians remains critical, 
and we have sought to strengthen UNMISS in numbers and capability. Full 
deployment of additional forces will take time, but we hope that it 
will contribute, along with the implementation of the January 23rd 
cessation of hostilities agreement, to improved security that can 
provide some space for the political process. Furthermore, a critical 
part of the UNMISS mandate is to facilitate and support 
accountability--a key aspect that we feel must be a core undertaking 
when South Sudan begins the process of moving beyond this crisis.
    Additionally, we firmly believe that the process must address the 
needs of the South Sudanese people. As many have noted, South Sudan's 
infrastructure remains critically weak and prevents the country from 
harnessing its vast resources. Together, lack of infrastructure and 
human capacity have combined with the lack of commitment by the state 
to provide basic services.
    The Intergovernmental Authority on Development (IGAD), which led 
negotiations for the cessation of hostilities, remains the primary 
forum for negotiations for a larger political resolution.

    Question. How have the events in South Sudan and CAR affected the 
counter-LRA efforts, to include any redeployment or curtailment of 
efforts/forces of U.S. and Ugandan personnel? Does Uganda remain fully 
committed to the counter-LRA mission? How has the African Union 
increased its role in the counter-LRA mission, if at all?

    Answer. Despite recent events in South Sudan and the Central 
African Republic (CAR), the African Union Regional Task Force (AU-RTF) 
continues to conduct operations and pursue the remaining LRA leaders. 
We believe that the LRA is facing significant internal pressure as a 
result of the AU-RTF's operations. In December 2013, 19 individuals, 
including 9 Ugandan fighters, defected from the LRA in the CAR--the 
largest single defection in several years. In the first weeks of 
January 2014, Ugandan and Congolese contingents of the AU-RTF conducted 
targeted operations to disrupt LRA camps and promote defections. U.S. 
military advisors continue to work with the AU-RTF to enhance these 
operations.
    At this time, Uganda remains committed to the counter-LRA mission 
and Ugandan forces continue to conduct counter-LRA operations in the 
CAR. However, it is possible that if the situation in South Sudan 
worsens, Uganda may shift some of its resources. South Sudan has 
recalled most of its battalion assigned to the AU-RTF, as one of the 
effects of broader divisions within the Sudan People's Liberation Army 
and the ongoing conflict. South Sudan retains a small contingent in 
Nzara, South Sudan, which continues to work with the AU-RTF. We remain 
concerned that these crises--if they remain unresolved--could create 
new difficulties for the counter-LRA effort and slow, or potentially 
reverse, the momentum that has been achieved over the past several 
months. Furthermore, as we have seen in the past, the LRA may seek to 
use the instability to evade military pressure and regroup.
    We continue to assess the regional situation and consult with the 
Ugandans about their commitments. We also continue to work closely with 
the African Union (AU). Over recent months, the AU has played an 
increasingly important role in strengthening the AU-RTF--both 
diplomatically and operationally. The AU Special Envoy for the LRA 
Issue Francisco Madeira has worked with the CAR and the Democratic 
Republic of the Congo (DRC) authorities to solidify their commitment to 
the AU-RTF and expand the AU-RTF's access. On the ground, the AU-RTF 
Commander has played an increasing role in directing the training and 
operational planning of the different AU-RTF contingents, improving 
coordination and information-sharing. As a direct result of these 
efforts, the number and geographic reach of counter-LRA operations 
expanded significantly in the second half of 2013.

    Question. Witnesses seemed to be in broad agreement that the poor 
decisionmaking and self-interest of leaders in South Sudan has brought 
the country to the brink of civil war. The second panel of witnesses 
indicated that our assistance to South Sudan would provide little or no 
leverage to compel those leaders to change course.

  <diamond> What leverage do we have? Would the administration be 
        willing to identify and use individually targeted sanctions--
        such as asset freeze and travel bans on individuals--to compel 
        changes in South Sudan?

    Answer. The administration is closely examining all options for 
applying pressure to individuals who are prolonging this conflict as 
well as any potential spoilers to a future peace process. We are 
calling on the parties to implement the cessation of hostilities 
agreement and to provide greater humanitarian access. We are working 
closely with our close allies like the United Kingdom (U.K.), Norway, 
the European Union (EU), the regional states of Ethiopia, Kenya, and 
Uganda, and others in the international community to explore, identify, 
and utilize every point of access and leverage. The Troika Special 
Envoys (the United States, U.K., and Norway) have been in the region 
working closely with one another and synchronizing messaging and 
engagement throughout the crisis. Additionally, the U.S. Special Envoy 
recognized the importance of the regional voice in this crisis as well. 
As mentioned earlier, he has remained in the region on a continuous 
basis in order to assist and facilitate a unified and coordinated 
international voice. This has been key is sustaining political pressure 
on the parties. This political pressure has resulted in moving the 
Parties closer to a cessation of hostilities. We see this as a positive 
and useful step and a direct result of the international community and 
key regional partners speaking with one voice. This same degree of 
coordinated pressure will be needed as we move forward with the long 
task of addressing the root causes of this crisis.

                                  [all]
</pre></body></html>
